<html>
<title> - EXAMINING POOL SAFETY ISSUES</title>
<body><pre>[Senate Hearing 109-597]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-597
 
                      EXAMINING POOL SAFETY ISSUES

=======================================================================

                                HEARING

                               before the

    SUBCOMMITTEE ON CONSUMER AFFAIRS, PRODUCT SAFETY, AND INSURANCE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 3, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                    U.S. GOVERNMENT PRINTING OFFICE
30-114                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
                                 ------                                

    SUBCOMMITTEE ON CONSUMER AFFAIRS, PRODUCT SAFETY, AND INSURANCE

                    GEORGE ALLEN, Virginia, Chairman
TED STEVENS, Alaska                  MARK PRYOR, Arkansas, Ranking
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
JIM DeMINT, South Carolina           BARBARA BOXER, California
DAVID VITTER, Louisiana


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 3, 2006......................................     1
Statement of Senator Allen.......................................     1
Statement of Senator McCain......................................     4
Statement of Senator Pryor.......................................     3
Statement of Senator Stevens.....................................    25

                               Witnesses

Baker, Nancy, Pool and Spa Safety Advocate.......................    14
    Prepared statement...........................................    17
Elder, Jacqueline, Assistant Executive Director, Hazard 
  Identification and Reduction, Consumer Product Safety 
  Commission.....................................................     4
    Prepared statement...........................................     6
Korn, Alan, J.D., Director of Public Policy/General Counsel, Safe 
  Kids Worldwide.................................................    26
    Prepared statement...........................................    29
Laven, Mark, President/CEO, Latham International; on behalf of 
  The Association of Pool and Spa Professionals (APSP)...........    20
    Prepared statement...........................................    22

                                Appendix

Duren, Gary S., President, Code Compliance, Inc., prepared 
  statement......................................................    54
Horner, Jack, Director, Congressional Relations, Consumer Product 
  Safety Commission, letter, dated May 5, 2006, to Hon. George 
  Allen and Hon. Mark Pryor......................................    51
National Swimming Pool Foundation, prepared statement............    53
Weiss, Gayle and Evan, Pool and Spa Safety Advocates, prepared 
  statement......................................................    56
Williams, Maureen, President, National Drowning Prevention 
  Alliance (NDPA), prepared statement............................    52


                      EXAMINING POOL SAFETY ISSUES

                              ----------                              


                         WEDNESDAY, MAY 3, 2006

                               U.S. Senate,
 Subcommittee on Consumer Affairs, Product Safety, 
                                     and Insurance,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SD-562, Dirksen Senate Office Building, Hon. George Allen, 

Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Good afternoon, everyone. I call to order 
this hearing of the Senate Subcommittee on Consumer Affairs, 
Product Safety, and Insurance. I'm sorry, I'm a bit late. We're 
having a top secret briefing from Secretary Rice and Secretary 
Rumsfeld on Iraq. And as you might guess, that ends up being a 
pretty engaging hearing. But, I wanted to get here and start 
this.
    We may have a vote, I understand in the midst of 
everything. We're going to try to figure a way to keep this 
working as a tag team, here with my colleague, Ranking Member 
of the Subcommittee, Senator Pryor, to keep it moving so that 
you all don't have to stand down and wait until we get back in 
force. So, we'll try to keep the hearing moving forward.
    Today at this hearing, we're going to examine the issue of 
swimming pool and spa safety, hoping to understand a more 
prudent means toward ensuring that everyone safely and 
responsibly enjoys pools and spas.
    I thank my good colleague and Ranking Member of the 
Subcommittee, Senator Pryor, for attending and helping promote 
greater awareness of the pertinent issues surrounding pool and 
spa safety. I thank you for helping me to examine all the 
issues that come before this Subcommittee, many of which you 
instigate and are good ideas. We work very well together. 
Again, we're coming together on an issue that's of concern to 
many people and I very much also appreciate and thank our 
witnesses, all of you, for being here and your willingness to 
discuss some sensitive and sometimes obviously, emotionally 
devastating topics.
    Potential mishaps and tragedies, obviously, can result from 
using pools and spas. We use the term spas like hot tubs, 
others use the term hot tubs. But each of our witnesses will be 
able to discuss particular aspects of this area of inquiry and 
hopefully lead us to a more complete understanding of how to 
maintain and improve pool safety and spa safety, as well. And I 
appreciate the time that you have taken to prepare your 
testimonies, some of them heartfelt, and to come before the 
Subcommittee this afternoon.
    In my view, consumer awareness and education are the proper 
precautions and responsible approaches here, so that people do 
understand how you can better use swimming pools. Some people 
just look at them as places to swim, but there are some 
dangers, clearly. And as we are heading into the summer, the 
warmer late spring, summer months, this is more important than 
ever.
    In fact, just the fact that we're having this hearing. I 
was talking to one of the women who work on the floor of the 
Senate and she said, gosh, I read USA Today and my gosh, I have 
young children. The heart wrenching story, she's concerned 
about it. Some other person said, gosh, I was watching Larry 
King Live and saw some of these stories. And so, there's a 
great deal of interest and a lot of it, regarding what will 
come from this hearing, particularly in terms of information, 
education, and proper precautions. When you and your child go 
swimming, and this is what most parents would think, this is 
going to be a fun adventure. You do worry about drowning or 
somebody hitting their head, but you would never think of the 
drains necessarily, until all of this has come up as a danger.
    We need to make sure that we understand the best practices 
for protecting any child from inadvertent injury or even death, 
which is an awful, terrible death if caught up in a drain. And 
it should be a fun experience, but the reality is, in studying 
this issue as we were preparing for this hearing, pool deaths 
or accidental injury related death from drownings is the second 
leading cause of death in this country for children ages one to 
four. Automobile wrecks are number one.
    A parent or an adult supervising is obviously of paramount 
importance in preventing injuries and death. And while most 
parents and adults are going to do whatever is reasonably 
prudent, so to speak, to watch their children, to supervise 
their children around pools and spas, still, even when 
attentive parents and adults are around, these accidents can 
unfortunately happen.
    We should be able, I believe, to come together for good 
reasonable solutions to try to avoid the devastating effects 
that result from a drowning or water-related injury.
    Today, we hope to gain knowledge of the proper balance 
between enjoyment and safety when it comes to the use, the 
design, construction, and maintenance of swimming pools, and 
spas, or hot tubs. A general review of pool safety before 
heading into the summer, as more and more families are 
preparing for their time outdoors and in the sun, is an 
initiative that hopefully, will lead to a reduction of injuries 
and deaths. Swimming should be an activity that people are able 
to enjoy.
    And our intent here today, is to listen to our witnesses, 
hear their constructive ideas, hoping to hear various 
perspectives on how to avert harm and improve safety for all 
pool and spa related activities. We hope that our witnesses 
will offer possible suggestions for improving pool and spa 
safety as well. Now, we look forward to hearing from each of 
our witnesses on the prudence of Federal involvement in 
addressing pool safety as well as ways beyond this hearing for 
improving consumer awareness of pool and spa safety measures.
    This is an emotional hearing to hold and all involved are 
to be commended for their participation and consideration of 
proposals on how to ensure our spas and pools are safe 
facilities for recreation. We have the opportunity today to 
examine pool safety. I believe this is actually the first 
Senate hearing on this subject, as far as I know. The first 
hearing in the Senate of its kind to collaborate and share with 
one another all available options toward alleviating and 
preventing the heartbreaking and heart-wrenching pain that is 
caused when a loved one is injured or loses his or her life in 
a pool accident.
    And so, I feel very strongly that education on these 
matters is a step in the right direction. We've already said--
I've heard comments on it. I don't know my Ranking Member or 
whether or not--is Congresswoman Debbie Wasserman Schultz 
somewhere in the audience? She may be coming over. She's to be 
commended for her leadership on the House side on this issue 
and whatever may move forward as we consider the evidence and 
testimony presented before us today. Everyone's comments will 
certainly be taken into account.
    And with that, Senator Pryor, would you like to make any 
comments before I introduce the witnesses?

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman. And I do believe 
the House is in a series of roll call votes right now, so 
hopefully the Congresswoman will come over as soon as she has a 
chance.
    This is an issue that's near and dear to my heart, because 
I have two children that are prime swimming pool age--age 10 
and 12. And obviously, that's one of their all time favorite 
activities. They love to swim and spend a lot of time in the 
swimming pool every summer.
    As the Chairman said a few minutes ago, we recognize this 
is the second leading cause of preventable child deaths and we 
need to underline that word preventable. That's one of the 
things that makes this so heart breaking when you hear these 
stories and by the way, I think we've heard three of these 
stories in the last 48 hours, here in the U.S., that children 
die in swimming pools. These accidents by and large, are very, 
very preventable. And it makes it very, very painful, very 
emotional for families to lose their children in this way.
    I want to thank Safe Kids for the work they've done to 
highlight this issue for parents. A big part of this is 
parental education and to really talk about pool safety as part 
of National Safe Kids Week. And I know that Johnson & Johnson 
and others have come forward to try to help in this effort.
    So, I appreciate them and I want to thank all the witnesses 
for being here. I know that particularly for Ms. Baker, this is 
going to be painful and emotional. But we want to thank you, 
all of the witnesses specifically, for coming. And I want to 
thank the Chairman here. He's been very, very cooperative on 
this and other issues. And Chairman Allen has done a great job 
in trying to promote this issue and a lot other consumer issues 
through this Subcommittee. And so, I just want to thank you and 
acknowledge all the hard work that you've done on this and many 
other issues.
    So, I look forward to hearing from the witnesses. I 
understand we're going to have a vote at some point, here in 
the next little bit. I'm not sure quite what the schedule is, 
but we'll work through that. Thank you.
    Senator Allen. Thank you, Senator Pryor. All of us who have 
children, I was just listening to the stories and I have 
children from 8 to 17 and they go over to their swimming pools, 
and they go over to their cousins' where they have a hot tub, 
and all of that. And you hear these stories and you think, 
gosh, what seems like such an innocent fun event, splashing 
around, can be something that's deadly.
    With that, Senator McCain has joined us. And Senator 
McCain, would you like to make any opening statement?

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. There's very little I can add to your and 
Senator Pryor's very thoughtful remarks. I noticed with some 
interest that the drowning was the leading cause of accidental 
death in and around the home for children under the age of five 
in California, Arizona, and Florida. So I think this is a 
timely and important hearing.
    Ms. Baker, our prayers go out to you and all families for 
whom you speak and I thank you for your dedicated effort on 
behalf of this issue. And I hope we can act effectively and 
quickly. Thank you, Mr. Chairman.
    Senator Allen. Thank you, Senator McCain. We very much 
appreciate you joining this hearing. I'm going to introduce the 
first panel of one, and then introduce the second panel when 
they come forward. Before we listen to the testimony, Ms. 
Elder, I would like to introduce our first panelist.
    This is Ms. Jacqueline Elder, who has previously testified 
in front of our Subcommittee. She is the Assistant Executive 
Director for Hazard Identification and Reduction at the 
Consumer Product Safety Commission. She has a great deal of 
technical knowledge in the area of pool and spa safety arising 
from her time spent in a leadership role on this issue at the 
CPSC.
    Her division at the Consumer Product Safety Commission also 
compiles many of the statistics that we've been talking about 
concerning and regarding pool safety, including injury and 
death data. So, she'll be able to give us a better idea of the 
breadth and the extent of the challenges we face in addressing 
pool and spa safety.
    We're glad you agreed to testify today, Ms. Elder, and we 
look forward to your testimony. Welcome back and you may begin.

 STATEMENT OF JACQUELINE ELDER, ASSISTANT EXECUTIVE DIRECTOR, 
 HAZARD IDENTIFICATION AND REDUCTION, CONSUMER PRODUCT SAFETY 
                           COMMISSION

    Ms. Elder. Thank you, Mr. Chairman, and good afternoon. I 
am pleased to have this opportunity to come before your 
Subcommittee today. The U.S. Consumer Product Safety Commission 
or CPSC, is a bipartisan independent agency charged with 
protecting the public from unreasonable risks of serious injury 
or death from more than 15,000 types of consumer products.
    We are proud of our mission and our achievements, and we 
appreciate the support that Congress has extended to the agency 
and to its goals over the years.
    Today's hearing is on the very important subject of pool 
safety. CPSC estimates that every year, more than 200 children 
under 5 years of age drown in swimming pools and more than 
2,000 children under 5 visit hospital emergency rooms after 
submersion in pools.
    Several years ago, CPSC conducted an extensive study of 
swimming pool incidents in selected states where home pools are 
very popular and in use during much of the year. The findings 
from that study are instructive.
    Most of the victims were being supervised by one or both 
parents when the submersion occurred. Almost 70 percent of the 
child victims were last seen in the house or nearby on a porch 
or in the yard just before the pool incident occurred. The 
speed with which swimming pool drownings can occur is 
devastating. A child can drown in the time that it takes to 
answer a phone. Seventy-seven percent of the swimming pool 
victims had been missing for 5 minutes or less when they were 
found submerged.
    Swimming pool drownings of young children have another 
particularly insidious feature in that these deaths are silent. 
It is unlikely that splashing or screaming will occur to alert 
a parent or caregiver that a child is in trouble. While we 
underscore that there is no substitute for diligent 
supervision, CPSC recommends multiple layers of protection to 
guard against pool drownings. Constructing and maintaining pool 
safety barriers to prevent young children from gaining access 
to pools is an essential first step, though not the only step, 
that every pool owner must take. The Consumer Product Safety 
Commission has issued a publication with safety barrier 
guidelines for home pool owners, and I would like to submit 
this publication to the Committee for the record.
    Senator Allen. It'll be made part of the record. *
---------------------------------------------------------------------------
    * The information referred to has been retained in Committee files 
and can be obtained at http://www.cpsc.gov/CPSCPUB/PUBS/Pool.pdf.
---------------------------------------------------------------------------
    Ms. Elder. Thank you. Drowning hazards related to spas, hot 
tubs, and whirlpools are also an area of concern to our agency. 
For 2002, CPSC has reports of nine children under the age of 
five who drowned in a spa or hot tub. One area of special 
concern regarding both spas and pools is deaths resulting from 
body entrapment or hair entanglement. CPSC is aware of 74 cases 
of body entrapment, including 13 deaths between 1990 and 2004. 
These deaths were the result of drowning after the body was 
held against a drain by the suction of the circulation pump. In 
that same time period, CPSC is aware of 43 incidents of hair 
entanglement in drain grates. Twelve of these incidents 
resulted in drownings.
    CPSC's publication, ``Guidelines for Entrapment Hazards: 
Making Pools and Spas Safer,'' provides important safety 
information that can be used to identify and eliminate 
dangerous entrapment hazards. We'd also like to submit a copy 
of that publication for the record.
    Senator Allen. Thank you. It will be made part of the 
record. *
---------------------------------------------------------------------------
    * The information referred to has been retained in Committee files 
and can be obtained at http://www.cpsc.gov/CPSCPUB/PUBS/363.pdf.
---------------------------------------------------------------------------
    Ms. Elder. Thank you. Last year, CPSC's annual 
comprehensive national pool safety campaign focused on pool 
drain entrapment hazards. As part of this information and 
education drive, CPSC's Chairman participated in a widely 
covered media event at a local pool to emphasize our message of 
providing layers of protection to prevent entrapments and child 
drownings.
    Another development last year was the identification of an 
emerging hazard with inflatable pools. These are relatively new 
products that sell inexpensively at retail outlets and hold 
large volumes of water. They often fall outside of local 
building code requirements and are often set up in backyards 
without consideration to appropriate barriers.
    CPSC is working with the voluntary standards organization, 
ASTM International, and committees have been established to 
focus on structural integrity, access and barriers, 
entrapments, electrocution, and warnings with regard to 
inflatable pools. Because of new technologies and new products, 
pool safety standards work is never a completed project, but 
rather, it is always an ongoing effort to assure the highest 
level of safety for America's families.
    CPSC will continue to work aggressively to reduce these 
deaths and injuries by working with safety standards 
organizations, state and local code officials, consumer groups, 
and other concerned parties and by conducting comprehensive 
education and public awareness campaigns. In fact, on May 17th, 
we will be launching our 2006 public awareness and education 
campaign, this year focused on hazards associated with 
inflatable pools. We appreciate the Committee raising awareness 
of this critical issue, and I am pleased to answer any 
questions that the Senators may have. Thank you.
    [The prepared statement of Ms. Elder follows:]

 Prepared Statement of Jacqueline Elder, Assistant Executive Director, 
Hazard Identification and Reduction, Consumer Product Safety Commission

    Thank you, Mr. Chairman, and good morning. I am pleased to have 
this opportunity to come before your Subcommittee today. I am the 
Assistant Executive Director for Hazard Identification and Reduction at 
the U.S. Consumer Product Safety Commission or CPSC. The CPSC is a 
bipartisan, independent agency charged with protecting the public from 
unreasonable risks of serious injury or death from more than 15,000 
types of consumer products under the agency's jurisdiction.
    Since its inception in 1973, CPSC has delivered critical safety 
benefits to America's families and has made a significant contribution 
to the 30 percent decline in the rate of deaths and injuries related to 
hazardous consumer products. We are proud of our mission and our 
achievements, and we appreciate the support that Congress has extended 
to the agency and to its goals over the years.
    In my role at CPSC, I oversee the technical work of the agency 
within the directorates for Epidemiology, Engineering Sciences, 
Economic Analysis, Health Sciences and Laboratory Sciences. My office 
is responsible for the collection and analysis of death and injury data 
concerning consumer products which include swimming pools and related 
products such as hot tubs, whirlpools, and spas and related accessories 
as varied as pool slides, drains and alarm systems.
    CPSC estimates that every year over 200 children under 5 years of 
age drown in swimming pools and more than 2,000 children under 5 visit 
hospital emergency rooms after submersion in pools.
    Several years ago, CPSC conducted an extensive study of swimming 
pool incidents, both drownings and non-fatal submersions, in selected 
communities in the states of California, Arizona and Florida where home 
pools are very popular and in use during much of the year. In those 
three states, drowning was the leading cause of accidental death in and 
around the home for children under the age of five. The findings from 
that study are instructive.
    Most of the victims were being supervised by one or both parents 
when the submersion occurred. Almost 70 percent of the child victims 
were last seen in the house or nearby on a porch or in the yard just 
before the pool incident occurred. A full 98 percent of the incidents 
occurred in a pool owned by the victim's family or friends with only 2 
percent of the incidents involving children trespassing onto property 
where they didn't live or where they didn't belong.
    The speed with which swimming pool drownings can occur is 
devastating. A child can drown in the time that it takes to answer a 
phone. Seventy-seven percent of the swimming pool victims had been 
missing for five minutes or less when they were found. Anyone who has 
cared for a toddler knows how fast young children can move. Toddlers 
are inquisitive and impulsive and lack a realistic sense of danger. 
These behaviors, coupled with a child's ability to move quickly and 
unpredictably, make swimming pools particularly hazardous for 
households with young children.
    Swimming pool drownings of young children have another particularly 
insidious feature in that these deaths are silent. It is unlikely that 
splashing or screaming will occur to alert a parent or caregiver that a 
child is in trouble.
    While we underscore that there is no substitute for diligent 
supervision, CPSC recommends multiple layers of protection to guard 
against pool drownings. Constructing and maintaining safety barriers to 
prevent young children from gaining access to pools is an essential 
first step that every pool owner must take. The Consumer Product Safety 
Commission has issued a publication with safety barrier guidelines for 
home pool owners that addresses fencing, gates, and doors leading to 
the pool, as well as other special requirements for above-ground pools. 
I would like to submit this publication on safety barriers to the 
Committee for the record.
    In addition to these various types of barriers, CPSC also 
recommends additional layers of protection such as safety covers and 
pool alarms. For pool alarms, CPSC advises that consumers use remote 
alarm receivers so that the alarm can be heard inside the house or in 
other places that are outside of hearing range from the pool.
    Drowning hazards related to spas, hot tubs and whirlpools are also 
an area of concern to our agency. In 2002, CPSC has reports of nine 
children under the age of five who drowned in a spa or hot tub. CPSC 
recommends that consumers use barriers, including a locked safety 
cover, whenever the spa is not in use and keep children away unless 
there is constant adult supervision.
    One area of special concern regarding both spas and pools is deaths 
resulting from body entrapment or hair entanglement. CPSC is aware of 
74 cases of body entrapment, including 13 deaths between 1990 and 2004. 
These deaths were the result of drowning after the body, or a limb, was 
held against a drain by the suction of the circulation pump. CPSC is 
also aware of 43 incidents of hair entanglement in pools, spas and hot 
tubs between 1990 and 2004. Twelve of these incidents resulted in 
drowning deaths as a result of hair becoming entangled in drain grates.
    CPSC's publication ``Guidelines for Entrapment Hazards: Making 
Pools and Spas Safer'' provides safety information that can be used to 
identify and eliminate dangerous entrapment hazards in swimming pools, 
spas and hot tubs. After initially publishing the guidelines in 1998, 
CPSC received feedback from code officials and pool operators across 
the country who had applied them in practice. As a result of this 
feedback, as well as the development of new technologies and product 
safety standards, CPSC initiated a project in 2003 to update the 
guidelines based on the information we received from the experiences of 
these professionals. In 2005, CPSC published the updated guidelines, 
and I would like to submit a copy of that publication for the record. 
The approach taken in the guidelines is to present various options to 
attain ``layers of protection'' and to strongly encourage owners and 
builders to construct, renovate and maintain pools that are as safe as 
possible for the families who enjoy them.
    Also in 2005, CPSC's annual comprehensive national safety campaign 
focused on pool drain entrapment hazards. As part of this information 
and education drive, CPSC's Chairman participated in a widely covered 
media event at a local pool to emphasize our message of providing 
layers of protection to prevent young children from drowning. The event 
demonstrated a drain entrapment scenario and included live 
demonstrations of pool alarms. Additionally, as part of this public 
awareness and education campaign, CPSC field staff made contacts 
nationwide with state and local pool inspectors, pool contractors and 
licensing bureau officials to help disseminate our pool safety message.
    Another development last year was the identification of an emerging 
hazard with inflatable pools. In June, CPSC staff cosponsored a meeting 
with ASTM, a voluntary standards organization, and invited a wide 
variety of interested parties involved in inflatable pool safety. These 
are relatively new products that sell inexpensively at retail outlets 
and hold large volumes of water. They often fall outside of local 
building code requirements and are often set up in backyards without 
consideration to appropriate barriers. An ASTM organizational meeting 
was held last December at CPSC headquarters in Maryland, and working 
committees were established on areas such as structural integrity, 
access and barriers, entrapment, electrocution, and warnings.
    Since then, CPSC staff has continued its work to address hazards 
associated with swimming pools and spas. CPSC staff continues to work 
with safety standard organizations in developing and strengthening 
voluntary safety standards for such pool related products as alarms, 
drain covers and suction vacuum release systems. Because of new 
technologies and new products, pool safety standards work is never a 
completed project, but rather it is always an ongoing effort to assure 
the highest level of safety for America's families.
    CPSC is a small agency, and working with state and local 
authorities and concerned citizens is an integral part of CPSC's effort 
to amplify our message on drowning hazards. In 2004, the Commission 
held public field hearings on pool safety in Tampa, Florida, and 
Phoenix, Arizona, to gather information firsthand and to raise 
awareness of the drowning hazard in the United States. CPSC invited 
state and local legislators, building code officials, emergency first 
responders, community groups and others to testify. The information 
presented at those hearings by the public and local authorities has 
been extremely helpful to the agency's work on this issue.
    CPSC will continue to work aggressively to reduce these deaths and 
injuries by working with safety standards organizations, state and 
local code officials, consumer groups and other concerned parties and 
by conducting comprehensive education and public awareness campaigns. 
In fact, on May 17th, we will be launching our 2006 public awareness 
and education campaign, this year focused on hazards associated with 
inflatable pools. We appreciate the Committee raising awareness of this 
critical issue, and I am pleased to answer any questions that the 
Senator may have. Thank you.

    Senator Allen. Thank you, Ms. Elder, for your testimony. 
Let me follow up with some questions and Senator Pryor 
undoubtably, will have some questions of you as well. In a 
Commission publication, Safety Barrier Guidelines for Home 
Pools, it states that 77 percent of the swimming pool accident 
victims have been missing for less than 5 minutes. You 
testified for that or less, when they are found in the pool 
drowned or submerged. Are there any products, and while you can 
identify all the stats, and data, and so forth, are there any 
products recommended to alert adults of a child's entering, or 
are there some better suited approaches to reduce this lag 
time, or any sort of devices, products, systems that you all 
would recommend to make pools safer?
    Ms. Elder. Yes. We look at it and recommend layers of 
protection to overcome what we see as usually a short lapse in 
supervision and to buy time, so that the child can be 
discovered before they enter the pool. First and foremost, we 
recommend a barrier completely surrounding the pool, and it's 
important that that barrier restrict access from the home to 
the pool, since many of the children were last seen in the 
home. If it's not possible to have a fence completely 
surrounding the pool, then we recommend alarms on doors that 
lead directly from the house to the pool or that there be a 
power safety cover on the pool. We also recommend pool alarms 
or in-water alarms as an additional layer of protection.
    Senator Allen. Have you recommended those in particular for 
new pools or retrofitting for existing pools?
    Ms. Elder. We recommend a barrier completely surrounding 
the pool for all pools. And pool alarms we recommend also, for 
all pools as an additional layer of protection.
    Senator Allen. How easy is that? Well, is putting a fence--
it depends on the configuration of a home. But insofar as 
alarms and so forth, would you have a different standard for a 
commercial facility versus a residential?
    Ms. Elder. Our focus has been on residential pools----
    Senator Allen. OK.
    Ms. Elder.--and drownings of children under the age of 
five.
    Senator Allen. Are you aware whether there's uniformity in 
the states, as Senator McCain mentioned Arizona, obviously the 
states that have the most pools are going to be those such as 
California, and Florida, Texas, Arizona, those states that have 
a lot of pools. I'm sure there's a pool or two in Alaska. 
Probably a hot tub. But something like a whirlpool as you 
called them, but do you see that the states are following these 
guidelines and these recommendations?
    Ms. Elder. There are widely varying requirements in the 
states, and I think some states--a very few states, have state 
legislation regarding pool safety. For others, it's handled at 
the county or local level and it varies throughout the country.
    Senator Allen. Let me ask you, one thing that has come up 
is devices that are called safety vacuum release systems, 
otherwise known as SVRSs. I note that your guidelines do not 
specifically endorse these safety vacuum release systems. I 
understand that they work when the suction from the bottom 
drain of a pool is so strong, and maybe the cover is off or for 
whatever reason not attached, or it's broken off. Say a kid 
going down to get goggles down by the drain or you know like 
kids jumping in or somebody's throwing a penny in to see if 
they are going to get it and they go down there, and the 
suction is so great on the drain. And these safety vacuum 
release systems would have a sensor on them, that if something 
is pulled in by the drain--whether it's clothing, or whether 
it's hair, or whether it's an arm, a leg, or a foot that it 
would stop the suction. Now two things here. One, you for 
whatever reason, do not specifically recommend SVRSs and I 
would like to know why they are not recommended devices in your 
guidelines? I think that some of our witnesses are going to 
testify to the effectiveness of such devices. And beyond that, 
I also understand that as a practical matter and this would be 
for pools going forward, that if you have the skimmers on the 
side and you put those--I don't know what they call them. They 
call them all sorts of different names, but there's a tube on 
them and you use the cleaning of the bottom with one of the 
whirlybirds or whatever they call all these things, sharks or 
something like this. At any rate, then you end up cleaning the 
bottom anyway and you still get the circulation of the water 
that way, but you don't have the drain. This would be on cement 
pools as opposed to vinyl liner pools. But insofar as the 
concrete pools, why do you not recommend at least for those 
that are built in the future, recognizing that it would be 
fairly difficult to retrofit or maybe it would still be 
worthwhile, but at least for pools that are being constructed 
from henceforth, why would you not recommend a safety vacuum 
release system?
    Ms. Elder. In our----
    Senator Allen. And I'm not saying you, it's the whole 
Commission, don't take it personal.
    Ms. Elder. Well actually, in our guidelines for preventing 
entrapment hazards, we do recommend extensive use of SVRS type 
systems. We believe that there is no single solution to 
addressing the entrapment hazard. And again, we recommend 
layers of protection. For older construction where it's not 
possible to rework the system so that you would have multiple 
drains, we recommend that SVRS or equivalent technology be 
used. For wading pools, for public wading pools, even if they 
have multiple drains, we do recommend also that SVRS be used 
since the drain is so accessible to young children.
    For new construction, we believe there are designs that can 
basically eliminate the entrapment hazard, and so in that 
situation, we recommend consideration of using an SVRS as an 
additional layer of prevention--especially if it's been tested 
to prove that it reduces entrapment. We also recommend that the 
appropriate drain covers be used to address body entrapment and 
hair entanglement. So we have quite extensive recommendations 
within our guidelines for the suction vacuum release technology 
or equipment types of technology that would serve the same 
purpose.
    Senator Allen. Do you specifically endorse these devices 
that shut off suction or vacuum force of the pool drains in 
case of entrapment? You're saying that you do endorse that as 
one of the layers or a different options.
    Ms. Elder. We recommend them as one of the layers of 
protection.
    Senator Allen. Why do you believe that the states have not 
acted because the building codes are primarily state codes 
which are administered by the localities, the local building 
officials in whatever county or city in which this construction 
is taking place, why do you think that the states have not 
acted in this regard?
    Ms. Elder. With regard to suction entrapment, I believe----
    Senator Allen. And not just for--yes, OK. For suction 
entrapment.
    Ms. Elder. I can start there and then----
    Senator Allen. Right.
    Ms. Elder.--I'll go back, but I think particularly with 
suction entrapment, it's a very hidden hazard and there isn't 
wide awareness of it. And I really do appreciate the efforts 
that are going on with Safe Kids and Ms. Baker to bring 
awareness to this issue, because I do think that one of the 
reasons that it's not been addressed is that it is such a 
hidden hazard and there isn't awareness out there.
    With barriers and the child drowning issue, I believe in 
the states, and particularly in the Sunbelt states, where there 
are a large number of pools and a large number of child 
drownings, we are now starting to see that coming into the 
codes in those states. But still, I believe it's a matter of 
education and awareness of the problem.
    Senator Allen. Well, that's one of the purposes of this 
hearing, to raise awareness. And I thank you. Senator Pryor, do 
you have any questions?
    Senator Pryor. I do, thank you. When I look at this problem 
just in the abstract, I think of just tens of hundreds of 
thousands of pools out there and it's kind of hard to get a 
handle on how you should do--how we should do the public 
education and parental education on this.
    However, I do think that there's a natural network out 
there and that would be the manufacturers obviously, in 
addition to the pool service technicians, the contractors, and 
the inspectors. They would seem to be able to get to the pool 
owner and educate them with material, or with information, or 
whatever it may be. Tell me--have you had any success in a 
targeted approach toward dissemination of public information 
like that?
    Ms. Elder. We have, for a number of years, done information 
education campaigns in this area. Both very broadly and in a 
targeted way and working with the industry and other interested 
parties to alert people to the issue and the hazard, as have 
many local jurisdictions and local--for example, medical 
personnel and firefighter personnel.
    Senator Pryor. Let me also ask about this relatively new 
phenomenon of the so called inflatable pool or the--I guess, 
they're more temporary type pools. I don't know a whole lot 
about them. But, I know with pools that are built in so to 
speak, you talk about safety barriers which as I understand it, 
it might be fencing, et cetera. What about these more 
inflatable, these more temporary type pools--what are your 
recommendations there?
    Ms. Elder. This is a difficult issue because they do have a 
substantial amount of water in them that definitely presents a 
hazard, and I think that people don't, because they're 
relatively inexpensive and sold to retail stores, people don't 
think about barriers with these pools and that's one of the 
reasons we're working with the interested parties to develop 
voluntary standards for this product. There is going to be a 
meeting at our headquarters on Tuesday, May 23rd, to look at 
what the task groups have come up with on this issue. We're 
looking at ways of possibly making the sides more of a barrier 
than they are now. Right now, they are very flexible and it's 
easy for children to fall in.
    Senator Pryor. OK.
    Ms. Elder. It is something that's being looked at now and a 
difficult issue to address.
    Senator Pryor. And I'm so glad that Senator Allen, a few 
moments ago, asked about SVRS because I had a question there 
too. But as I understand your guidelines or recommendations, as 
I understand it unless I'm wrong, I think what you're talking 
about right now is voluntary guidelines or voluntary things. Is 
there a reason why something like safer drain covers shouldn't 
be mandated?
    Ms. Elder. What we have done is made voluntary guidelines 
available to those parties that are interested. I think that we 
were very hopeful that the states would pick up these 
guidelines and use them as they're developing legislation. 
We've seen that work with other guidelines that we have in the 
area of playground safety, where they've been adopted by the 
states as mandatory requirements.
    Senator Pryor. Are you familiar with Congresswoman 
Wasserman Schultz's legislation in the House?
    Ms. Elder. Yes, I am.
    Senator Pryor. Do you have any comments on that?
    Ms. Elder. I don't. I really can't comment on that. That 
would be something that would be for our Commissioners to 
comment on.
    Senator Pryor. OK. And the last thing I had is when you 
look at the statistics, as I understand what you said a few 
moments ago and in your written testimony, I believe you said, 
that there is some under-reporting of these type of incidents. 
Do you have a sense of how much under reporting there is and 
what the real numbers might be?
    Ms. Elder. With the overall child drowning incidents, we 
feel that our estimates are fairly accurate in that area. With 
regard to suction entrapment, we have a minimum count of the 
number of incidents that we're aware of. So, there may be some 
under reporting there. But, we've been very concerned about 
this issue for quite some time. And we've made a concerted 
effort to reach out across the country to learn about these 
issues. We've asked our field investigators to focus on it. 
We've asked our news clipping services throughout the country 
to look, and we've asked people in the public health community, 
and the medical community, and industry to report to us 
whenever they learn of a case regarding a suction entrapment.
    Senator Pryor. Thank you.
    Senator Allen. OK. We--a vote just started at 3:20.
    Senator Pryor. So, do you want me to run and do that?
    Senator Allen. If you want to run and do it. And when you 
get back, you can take over as Chair.
    Senator Pryor. Perfect. I'll be right back.
    Senator Allen. Thank you. Let me ask Ms. Elder a few 
follow-up questions. You all seem to--or the Commission seems 
to place a heavy emphasis on the dual drain approach as a way 
of mitigating the dangerous suction force levels, is it your 
view or the view of the Commission, that dual drains by 
themselves are sufficient to mitigate the threat of entrapment 
drownings without a SVRS or other safety device?
    Ms. Elder. We do believe that information that we have 
indicates that dual drains can be an effective way of 
addressing the entrapment hazard.
    Senator Allen. Even without one of the suction--without a 
suction cutoff device?
    Ms. Elder. We recommend consideration of an SVRS device 
when there are dual drains.
    Senator Allen. Even when there are dual drains?
    Ms. Elder. Yes.
    Senator Allen. OK, good. I wanted to get that. The final 
thing is that, you know it's not as if the only people who care 
about children are those in the Federal Government and we're 
having a hearing, first one of the Senate. The reason we're 
having this hearing is apparently that, for whatever reasons 
and maybe it's a lack of knowledge, lack of education, and I 
think this is very timely of course. Probably before we get 
into the swimming season, that some states have and some states 
haven't put in these codes. Does your Commission, as a 
practical matter, have jurisdiction to have a standard to 
mandate these safety devices on pools and spas, whether it's 
safe drain covers, safety vacuum release systems, the fencing, 
thereby bypassing the need to get it done at the state level. 
And in other words, can the CPSC convert the pool and spa 
entrapment guidelines into a mandatory requirement?
    Ms. Elder. We would have to look at that. We have very 
strict findings that we have to make before we can issue a 
mandatory standard. So, we would need to look carefully at that 
and our authority to act in that area.
    Senator Allen. And then I understand you're going to step 
up, at least in education process, before we get toward 
Memorial Day and Independence Day. Is that correct?
    Ms. Elder. Yes. We are going to announce our campaign on 
May 17th in the pool safety area.
    Senator Allen. OK. Thank you, Ms. Elder.
    Ms. Elder. Thank you.
    Senator Allen. I very much appreciate your testimony and 
your guidance, as well as your willingness to appear and 
prepare for us today. Thank you.
    Ms. Elder. Thank you.
    Senator Allen. I would like to have now, after Ms. Elder 
leaves the bench, if we could have the second panel please come 
forward. It will be Ms. Baker, Mr. Laven, and Mr. Korn.
    While our witnesses are getting ready, I understand that 
Congresswoman Wasserman Schultz is in the room somewhere. I've 
been--well, there you are, back there. Thank you. I want--I 
said it in your in absentia--let me say it with you here. Thank 
you for your leadership on pool safety in the House and your 
work also before then in the legislature for the State of 
Florida, in helping pass Florida's Residential Swimming Pool 
Safety Act. And I understand you're going to be introducing a 
measure, if you haven't already, in the House. Excuse me?
    Ms. Wasserman Schultz. Next Tuesday.
    Senator Allen. Next Tuesday. All right, that's good to 
know. We're holding a hearing here and we're gathering evidence 
and information, so that we can make an informed judgment as to 
what would be appropriate action, whether by the Federal 
agencies or by the Senate as well. As I understand yours is an 
incentive-based program to encourage the states to adopt such 
laws. Being one who doesn't like dictates and mandates, an 
incentive approach is one that philosophically is more 
consistent with my principles and I thank you, Congresswoman, 
for you great leadership here. And if you'd--we're bound to be 
able to find a chair for you, if you don't want to keep 
standing.
    Ms. Wasserman Schultz. (Off microphone.)
    Senator Allen. Thank you. All right, our second panel, 
we're going to hear from them. First is Nancy Baker, a mother 
who's come today to relate her personal story about the loss of 
her daughter in a spa suction entrapment accident.
    And Ms. Baker, I know that you've become an outspoken 
advocate for increased pool and spa safety and it's an issue 
obviously, close to your heart and it touches the hearts of all 
parents across America. And we're grateful that you've agreed 
to testify and you're testifying for your daughter as well, and 
for parents all across America. So, I really believe you're 
going to help us all understand much better, the issues and 
dangers associated with--whatever you want to call them, 
whirlpools, swimming pools, or spas. And we hope to strengthen, 
one way or another, the safety so that future accidents and 
deaths will be avoided.
    Next, we'll then hear from Mr. Mark Laven who is the 
President of Latham Plastics, a company that manufactures 
fiberglass and vinyl line pools. He's testifying on behalf of 
The Association of Pool and Spa Professionals, a trade 
association representing many companies and individuals in the 
pool and spa industry. Mr. Laven's business expertise as well 
as his knowledge of the most appropriate method for 
constructing safer pools and spas will be, I think, very 
helpful to us in understanding what's the best and most 
appropriate way to proceed.
    And we thank Mr. Laven, for coming here. We understand that 
you flew down from Latham, New York and we appreciate you being 
here.
    And finally, we'll hear from Alan Korn, a familiar face 
here on Capitol Hill and someone who has pioneered safety 
advocacy for Safe Kids, not just here, but worldwide. Mr. Korn 
is--as Director of the Public Policy and as General Counsel for 
Safe Kids, with the backing of his organization, has made it a 
goal to prevent accidental childhood injury.
    In the context of pool and spa safety, Safe Kids Worldwide 
has declared this National Safe Kids Week, as well. Your 
leadership, Mr. Korn, on this issue and the desire to inform 
all consumers of the best means toward making their favorite--
or at least one of their favorite summertime activities as safe 
as possible, is commendable. And we thank you for coming and we 
look forward to hearing from your testimony.
    We're going to first hear from Ms. Baker, and if you're 
ready to proceed----
    Ms. Baker. I am.
    Senator Allen.--we'd like to hear from you, ma'am.

     STATEMENT OF NANCY BAKER, POOL AND SPA SAFETY ADVOCATE

    Ms. Baker. Thank you. Thank you. My name is Nancy Baker and 
it is my pleasure to testify before the Senate Consumer 
Affairs, Product Safety, and Insurance Subcommittee today. And 
I thank you for allowing me to address the important topic of 
pool and spa safety. Although it's a great privilege to be 
given the opportunity to speak, I'm so very sorry for the 
circumstances that have brought me here. I thank you, Chairman 
Allen. I'm actually your constituent. I'm from Virginia. And I 
also thank Senator Pryor, for holding this hearing.
    In June of 2002, nearly four years ago, my seven-year-old 
daughter, one of a set of twins, lost her life in a spa. Her 
death has brought me here, with both a deep sense of regret and 
a deep sense of duty to communicate to you how critical it is 
for the Federal Government to intervene in a situation which is 
costing this country literally hundreds of lives every year.
    On a magnificent Saturday in June of 2002, I attended a 
pool party with my five daughters. My three youngest children 
entered the pool when we arrived. All of them had been swimming 
unassisted for at least 4 years and had grown up with a pool in 
their own back yard. I stood on the pool deck at this event, 
providing what I then thought was sufficient supervision for my 
children. At one point I realized that only two of mine were in 
the water and after scanning the pool--the bottom, the sides, 
the deck, I made an assumption that one, named Graeme, had gone 
inside the home we were visiting. There were many people both 
in and around the water, there was music, and food and 
distraction. There was no lifeguard, nor any one person whose 
sole job was to watch the water.
    Moments later my 11-year-old daughter came running from one 
end of that pool toward me, with terror and horror in her eyes. 
And she told me that her sister Graeme was in the hot tub. I 
ran to the edge of this tub and looking down, I saw nothing but 
dark and bubbling water. She insisted that Graeme was there. I 
jumped in, I put my head underwater and what I saw is beyond 
what I can describe. Her eyes were pinched closed, her limbs 
and hair were moving with the current of the water from the 
jets on the side. I tried to pull her up and I pulled with all 
of my strength, and in the confusion and panic, I could not 
raise her up. I dove down, again and again, screaming for help 
until finally I gave up and I ran to a grassy area adjacent to 
the deck and I collapsed in agony.
    Two parents pulled her out and they were rolling her from 
side to side, and I could see this--attempting to provide CPR 
to her. Finally, paramedics arrived and I was reassured that 
Graeme's heart was beating and that there was hope. She was 
flown to the hospital. And when I arrived there, I was taken 
into a small room in the emergency department. Still wet, 
wrapped in a blanket and I heard a voice say the impossible. 
That my daughter, Graeme, was gone and that they had done 
everything they could to revive her. And it was a moment that 
ended many lives, as for me and my family there was one life 
that we knew before her death and quite another that we have 
lived since.
    I was asked if I wanted to see her, and in truth, I was 
almost too frightened to know how to answer that question. I 
did, and I am grateful for those moments that I was able to 
hold her, and rock her, and sing that lullaby, and say goodbye 
and goodnight in a horribly painful way. I look to the day when 
I am with her again.
    Graeme died because she became entrapped, pinned underwater 
on the drain of the spa she was playing in. Her body was held 
there by hundreds of pounds--hundreds of pounds of suction 
force. It took two adults to pull her off the drain. The force 
so great that the cover of the drain, and it was attached 
properly, cracked in half from moving her.
    Over the days and months since her death I have come to 
accept that she's gone. But I cannot however, accept the 
circumstances that took her life. This spa had been serviced by 
pool professionals the day before my daughter swam in it. It 
was considered to be in working order. In fact, this spa posed 
a tremendous hazard as do spas and pools around this country 
today. There were voluntary guidelines issued by the CPSC that 
were in place at that time, but none of the recommendations 
that were outlined in those guidelines were in place in the spa 
where she died. Nor were there local building codes which would 
compel those safety measures to be installed. And because of 
the voluntary nature of those guidelines this beautiful--I mean 
beautiful, healthy, magnificent little girl found herself in 
horror and panic, with her buttocks pinned at the bottom of 
this spa, unable to come up for air. And I have since 
discovered that this has been occurring for decades.
    Safe Kids was e-mailed last night by a woman whose daughter 
was entrapped and died in 1973 and she said she cannot believe 
it's still going on. What is critical to realize is that in 
these instances, the pools were in compliance with the local 
building codes at the time. Therefore, I am here as a parent of 
one of those victims to beg of you to please exert the 
influence you have and insist that the codes within these 
states be examined and written to require that certain measures 
be taken to end these deadly accidents and that they are 
consistent throughout this country. I'm out of time.
    Senator Allen. You can take all the time you want, Ms. 
Baker. Ignore these lights.
    Ms. Baker. OK. I'm sorry. I don't have too much more.
    Senator Allen. The rest of you may get 5 minutes, but Ms. 
Baker takes all the time she wants.
    Ms. Baker. I'm sorry. We face a situation in this country 
where the pool and spa industry resists the layers of 
protection that are needed to prevent entrapment. Furthermore, 
the industry has undertaken intense lobbying efforts throughout 
the United States urging that local building code officials not 
adopt all these layers of protection modeled after the 
International Building Codes.
    I can provide you with articles in which certain 
individuals and industry associations celebrate the defeat of 
bills introduced on a state level intended to provide building 
standards, which would ultimately safe lives. These standards 
have been referred to as burdensome, yet the truth is there is 
no greater burden, I can promise you, there is no greater 
burden than the loss of a child.
    My family and I applaud and fully support the legislation 
that Congresswoman Debbie Wasserman Schultz is introducing in 
the House of Representatives, as it is intended to provide 
incentive for the states to provide safe building codes 
consistent with the recommendations of the independent 
International Building Codes.
    Entrapment is a mechanical problem, it isn't an accident. 
When a repairman comes to my home to work on my furnace or 
appliance, there are explicit codes that he must follow in 
order to leave that product working in a way that ensures the 
safety of the people using it. And my sense is, that there is a 
consistency throughout the United States in those standards. 
When a pool is serviced, the codes which guide the work being 
done leave pools and spas in dangerous conditions, leaving 
people using them vulnerable to death and injury beyond the 
protection against entrapment.
    This legislation calls for four-sided barrier fencing 
around pools, isolating the water from the entrances and exits 
of the home protecting the children who live in that home. The 
vast majority of drownings occur in backyard pools, usually due 
to a momentary lapse of supervision, where a child slips out of 
the house without a caregiver noticing. As conscientious and 
responsible as all parents try to be, it is human nature to 
have momentary distractions and we must, as a society, insist 
that we put something between our children and the water to 
prevent their access to a huge fascination for them--water.
    One hundred children are dying every summer in pools and 
spas. Approximately 1,500 children were treated in the 
emergency rooms for near drownings in pools. The Federal 
expense in providing financial incentives to the states to 
adopt safe building codes must be weighed against the medical 
cost of providing care to an individual who sustains permanent 
neurological damage due to a near drowning and a lifetime of 
medical care. And that's just the beginning. There is no value 
you can assign to the emotional toll of drowning.
    In closing, it gives me great hope that this hearing is 
being held today. From a personal perspective, it's healing to 
sense that from a loss that has taken such a tremendous toll on 
all of my family that the possibility exists that some good may 
come from a senseless and utterly preventable death.
    I have faith that my angel, Graeme, is helping to urge us 
along. I am certain that she gives me the strength to go on 
without her, but always on behalf of her and the others whose 
lives were cut short in this horrendous way. Those children 
knew that something was terribly, terribly wrong as they died. 
We all have a responsibility now to take that knowledge of 
what's gone so wrong and use the technology currently available 
and not merely suggest it or recommend it, but rather demand 
that solutions be implemented to prevent further loss of life.
    There may be cost associated with these changes. But I can 
assure you, that whatever the cost in dollars and cents, it 
cannot possibly compare with the cost of losing the most 
precious and treasured person in our lives--our children.
    This experience leaves you physically, emotionally and even 
for a time, spiritually bankrupt and it is a very very long 
process toward becoming an intact human being again. Please, if 
you will, help me to prevent others from ever having to know 
this journey of grief. It is like no other. I would consider it 
a privilege to be a partner in those efforts. The work and 
commitment of Safe Kids, of Congresswoman Schultz, and of the 
CPSC has been an inspiration to me. As well and always, I too 
am inspired by the goodness and spirit of this child named 
Graeme and her loving and supportive sisters, my daughters.
    Thank you so very much for the opportunity to testify. I'm 
so sorry, I've run over. I do so hope that I have been able to 
convey to you the importance of your time and energy in 
examining pool and spa safety. Thank you.
    [The prepared statement of Ms. Baker follows:]

    Prepared Statement of Nancy Baker, Pool and Spa Safety Advocate

    My name is Nancy Baker. It is my pleasure to testify before the 
Senate Consumer Affairs, Product Safety, and Insurance Subcommittee 
today and I thank you for allowing me to address the important topic of 
pool and spa safety. Although it is a great privilege to be given the 
opportunity to speak, I am so very sorry for the circumstances that 
have brought me here. In June of 2002, nearly four years ago, my seven-
year-old daughter--one of a set of twins--lost her life in a spa. Her 
death has brought me here, with both a deep sense of regret and a deep 
sense of duty to communicate to you how critical it is for the Federal 
Government to intervene in a situation which is costing this country 
hundreds of young lives each and every year. And it is a fact that the 
vast majority of deaths in pools and spas are preventable. I have come 
here to impress upon you the enormous cost of losing a child to 
drowning and to plead with you to give thoughtful consideration to what 
the government must do to assist in reducing the number of lives lost 
in drowning accidents.
    On a magnificent Saturday afternoon I attended a pool party with my 
five daughters, being held in honor of a large group of soon to be high 
school graduates. My oldest child was one of them. My three youngest 
children entered the pool when we arrived. All of them had been 
swimming unassisted for at least four years, were members of our 
neighborhood swim and dive team and had grown up with a pool in their 
own back yard. I stood on the pool deck at this event, providing what I 
then thought was sufficient supervision for my children. At one point I 
realized that only two of mine were in the water and after scanning the 
pool--made an assumption that one, named Graeme, had gone inside the 
home we were visiting. There were many people both in and around the 
water, there was music and food and distraction. There was no 
lifeguard, nor any one person whose sole job was to watch the water.
    Moments later my eleven-year-old daughter came running from one end 
of the pool towards me, with terror, horror, in her eyes. She told me 
that her sister Graeme was in the hot tub. I ran with her to the edge 
of this hot tub, which was directly connected to the pool itself and 
accessible from the shallow end through a small opening in the edge of 
the pool. Looking down I saw nothing but dark and bubbling water. She 
insisted that Graeme was there, frantically crying and pointing into 
the tub. I jumped in, put my head underwater and what I saw is beyond 
what I can describe. Her eyes were pinched closed, her hair and limbs 
moving with the current of the water from all the jets on the side. I 
tried to pull her up, I pulled with all of my strength, and in the 
confusion and panic, I could not raise her up. I remember thinking that 
she had been murdered, that someone had attached her to the bottom 
somehow--it seemed the only viable explanation for why I couldn't get 
her up to the surface. I dove down, again and again, screaming for help 
until finally I gave up and ran to a grassy area adjacent to the deck 
and just collapsed in agony. I truly, in those moments just lost my 
mind in fear, confusion and the horror of what was unfolding. I 
perceived everything in this strange slow motion and I lost the ability 
to hear. I only recall Graeme's twin telling me that she had found her 
underwater, but that she was just pretending, so everything would be 
alright. Oh, how desperately I wished that to be true. But by that time 
two adults had brought her out and they were rolling her from side to 
side, attempting to provide CPR to her. People were surrounding me, 
they had brought the young girls to me and put them in my lap to stop 
them from running over to their sister's side. Finally, paramedics 
arrived and I was reassured that Graeme's heart was beating, that there 
was hope. She was flown to the hospital and I was told I'd be driven 
there to meet her. When I arrived, I was taken into a small room in the 
emergency department. I was still wet, wrapped in a blanket which I 
used to cover my head. I wanted to disappear and deny that all of this 
was happening. Shortly after I heard the door open, and I could see 
from under the blanket many feet. And I heard a voice say the 
impossible. That my daughter, Graeme, was gone and that they had done 
everything they could to revive her. It was a moment that ended many 
lives, as for me and my family there was one life we knew before her 
death and quite another that we have lived since. I was asked if I 
wanted to see her, and in truth, I was almost too frightened to know 
how to answer that question. It had never, ever crossed my mind that I 
would one day be asked if I desired to see my child's body. I did, and 
I am grateful for those moments that I was able to hold her one last 
time, to rock her in my arms and to say goodbye in such a painful way. 
I look to the day when I am with her again.
    Graeme died because she became entrapped, pinned underwater, on the 
drain of the spa she was playing in. Her body was held there by 
hundreds of pounds of suction force. It took two adults to pull her off 
of this drain, the force so great that the cover of the drain cracked 
in half removing her. Over the days and months since her death I have 
come to accept that she is gone. I cannot, however, accept the 
circumstances that took her life. This spa had been serviced by pool 
professionals the day before my daughter swam in it. It was considered 
to be in working order. In fact, this spa posed a tremendous hazard as 
do spas and pools around this country today. There were voluntary 
guidelines that had been issued by the CPSC at this time, but none of 
the recommendations that were outlined in those guidelines were in 
place in the spa where she died. Nor was there anything to compel the 
homeowners, or service company, to insist that those safety measures be 
installed. And because of the voluntary nature of those guidelines this 
beautiful, healthy, magnificent little girl found herself, in horror 
and panic, with her buttocks pinned at the bottom of this spa, unable 
to come up for air. I have since discovered that this has been 
occurring for decades, dozens of stories, one more gruesome and tragic 
than the next. In August of 2000, a twelve-year-old boy drowned after 
being sucked, head-first into an intake pipe in a resort swimming pool, 
requiring six hours to remove him after the pump had been shut down. In 
that same month a ten-year-old died three days after his fingers were 
caught in the drain of his family's whirlpool spa. In February of 1996, 
in Florida, a six-year-old was sucked into the drain of a spa. When the 
father freed him, he also brought up a chunk of concrete and the drain 
cover still attached to the child's stomach. What is critical to 
realize is that in these instances, the pools were in compliance with 
the local building codes at the time. Therefore, I am here as a parent 
of one of these victims to beg of you to please exert the influence you 
have and insist that the codes within these states be examined and 
written to require that certain measures be taken to end these deadly 
accidents. Were pools and spas required to have multiple drains the 
suction force at each one would be lessened, provided neither were 
blocked by debris or objects. Were anti-entrapment drain covers used to 
replace the flat grate covers which were and still are used to cover 
drains, it would be more difficult for a body part to seal the drain--
not impossible--but less likely. And, lastly, if a device called a 
safety vacuum release system were installed the pump would 
automatically shut off, releasing a victim should an entrapment occur. 
Each of these layers is meant to provide protection should the prior 
one fail for any reason. And this is the answer to the danger of 
entrapment. Were these the standard, as the International Building 
Codes have adopted, entrapments would cease to occur. Yet we face a 
situation in this country where the pool and spa industry resists the 
layers of protection that are needed to prevent entrapment. I have read 
articles indicating that due to the relatively small number of children 
who suffer death and injury that entrapment is not a serious threat and 
therefore does not warrant a shift in building and maintenance 
practices. Furthermore, the industry has undertaken intense lobbying 
efforts throughout the United States urging that local building code 
officials NOT adopt these layers of protection modeled after 
International Building Codes. My family and I applaud and fully support 
the legislation that Congresswoman Debbie Wasserman Schultz is 
introducing in the House of Representatives, as it is intended to 
provide incentives for the states to provide safe building codes 
consistent with the recommendations of the independent International 
Building Codes. Entrapment is a mechanical problem, not an 
``accident.'' It has an explicit solution which, if implemented, will 
save young lives. When a repairman comes to my home to work on my 
furnace, or appliance, there are explicit codes that he must follow in 
order to leave that product working in a way that ensures the safety of 
the people using it. When a pool is serviced, the codes which guide the 
work being done leave pools and spas in dangerous conditions, leaving 
people using them vulnerable to death and injury. We must insist that 
this practice change, face the very real fact that there is an inherent 
danger in pools and that there are proven ways to reduce the incidences 
of drownings. The fourth layer of protection which this legislation 
calls for is four-sided barrier fencing around pools--isolating the 
water from the entrances and exits of the home. The vast majority of 
drownings occur in backyard pools, usually due to a momentary lapse of 
supervision, where a toddler slips out of the house without a caregiver 
noticing. Within two minutes of being in the water, that child has 
nearly drowned and within four, most likely will not survive. As 
conscientious and responsible as all parents try to be, it is human 
nature to have momentary distractions and we MUST, as a society, insist 
that we put something between our children and the water to prevent 
their access to a great fascination--water. To put this loss of life in 
perspective I would like to share with you some comparative and tragic 
statistics. In 2003, there were 482 American soldiers who lost their 
lives in Iraq. In that same year, 782 children died in accidental 
drownings. Also, in 2003, 2,408 soldiers were wounded in Operation 
Iraqi Freedom. In 2004, approximately 3,700 children were treated in 
emergency rooms for near-drownings. Roughly half of these deaths and 
injuries occurred in pools and spas. With the compassion and attention 
that we give all loss of life, I ask each of you to please seriously 
consider supporting measures which will significantly reduce drowning 
accidents. The numbers, the emotional and medical cost, the collective 
heartbreak when a child dies is simply too immense to ignore.
    In closing, it gives me great hope that this hearing is being held 
today. From a personal perspective, it is healing to sense that from a 
loss that has taken such a tremendous toll on our family that the 
possibility exists that some good may come from a senseless and utterly 
preventable death. I have faith that my angel, Graeme, is helping to 
urge us along. I am certain that she gives me the strength to go on 
without her, but always on behalf of her and the others whose lives 
were cut short in this way. Those children knew that something was 
terribly, terribly wrong as they died. We all have a responsibility now 
to take that knowledge of what has gone so wrong and use the technology 
now available and not merely suggest it, or recommend it, but rather 
demand that solutions be implemented to prevent further loss of life. 
Yes, there will be cost associated with these changes. But I can assure 
that whatever the cost in dollars and cents, it cannot possibly compare 
with the cost of losing that most precious and treasured person in our 
lives, our children. This experience leaves you physically, emotionally 
and even, for a time, spiritually bankrupt and it is a very long 
process toward becoming an intact human being again. Please, if you 
will, help me to prevent others from ever having to know this journey 
through grief. It is like no other. I would consider it a privilege to 
be a partner in those efforts. The work and commitment of Safe Kids, of 
Congresswoman Wasserman Schultz and of the CPSC has been an inspiration 
to me. As well, and always, I too am inspired by the goodness and 
spirit of my child, Graeme, and her loving and supportive sisters. 
Thank you so very much for this opportunity to testify here today. I do 
so hope that I have been able to convey to you, on a personal level, 
how very important your time and attention to pool and spa safety is.

    Senator Pryor [presiding]. Thank you, Ms. Baker. I 
appreciate your testimony and your commitment on this issue. 
Mr. Laven?

 STATEMENT OF MARK LAVEN, PRESIDENT/CEO, LATHAM INTERNATIONAL; 
  ON BEHALF OF THE ASSOCIATION OF POOL AND SPA PROFESSIONALS 
                             (APSP)

    Mr. Laven. Thank you. Chairman Allen and distinguished 
Members of the Subcommittee, my name is Mark Laven. I'm 
President and CEO of Latham International, the leading 
manufacturer of in-ground swimming pools in North America. 
Latham is a 50-year-old company with 1,200 employees at 20 
manufacturing locations in the United States and Canada. Like 
many in the pool and spa industry, I am a third-generation 
member of my family to be associated with the company and with 
the industry. And in many ways, we are a family-oriented 
industry.
    Today, I am testifying on behalf of The Association of Pool 
and Spa Professionals, APSP, the international trade 
association of the pool and spa industry. In this regard, when 
I use the term we, I am referring to APSP and the industry as a 
whole, not my company. We, collectively, thank the Subcommittee 
for holding this hearing, highlighting the critical importance 
of pool safety, particularly during National Safe Kids Week. We 
have participated in events sponsored by Safe Kids Worldwide 
and others to educate caregivers on pool safety measures. 
Safety is a core belief and commitment of this industry, and we 
appreciate the opportunity to participate here today.
    Our industry touches millions of people. In this country 
alone, there are approximately 4.7 million in-ground pools, 
many with adjoining spas, 3.6 million above-ground pools, and 
5.4 million portable hot tubs in use today.
    Briefly, APSP, formerly known as NSPI, or the National Spa 
and Pool Institute, is headquartered in Alexandria, Virginia, 
and has approximately 4,500 members, largely in North America. 
Its members are comprised of pool, spa, and equipment 
manufacturers, builders, distributors, retailers and service 
companies, and their employees. Associated members include 
public health officials, building code officials, and others 
with an interest in the pool and spa industry, and aquatics in 
general. Membership is voluntary, but all members agree, by a 
Code of Ethics, ``to contribute to the health, safety and 
welfare of the public in the installation, maintenance and 
operation of swimming pools, spas, and hot tubs, and to comply 
with applicable laws, and ordinances, and regulations.''
    Since its inception, APSP has been committed to promoting 
the safe and enjoyable use of pools and spas, as have many of 
its members, including my own firm, Latham International. In 
this statement, I'd like to summarize how we carry out this 
commitment. Additional detail is provided in the Appendix we 
have submitted for the record.
    APSP and the industry promote safety by advocating 
widespread use of pool and spa standards approved by ANSI, the 
American National Standards Institute, and by education, 
training, and disseminating safety information.
    Currently, APSP and the industry support comprehensive pool 
and spa construction and design standards. These standards are 
developed in accordance with the rigorous third-party consensus 
review process of ANSI. Eight standards are in effect, and one 
additional standard is pending. A principal purpose of these 
standards is the prevention of three major concerns of pool 
safety--drownings, diving accidents, and suction entrapment.
    The ANSI standards are continually reviewed and revised to 
reflect new methods and technologies that enhance safety. We 
advocate their widespread use within the industry and we 
continue to promote their adoption by state and local 
officials. We emphasize safety in many educational settings, at 
national and local levels both within and beyond the industry. 
APSP has developed comprehensive educational materials and 
offers training and certification in both pool construction and 
servicing.
    Recognizing the critical need to deliver safety information 
directly to pool and spa owners and parents, APSP's awareness 
and public awareness outreach programs provide a wide array of 
brochures and publications with titles like: ``Important Safety 
Information'' and ``Children Aren't Waterproof.'' All of these 
are available to the public at no charge by calling 800-323-
3996, which is APSP's toll-free consumer contact number.
    In addition, four related APSP websites further extend 
safety outreach to the public. TheAPSP.org, PoolPeopleUSA.com 
and HotTubLiving.com all contain important safety information 
and a special site for kids, SplashZoneUSA.com, teaches water 
safety with online fun and games. Safety is highlighted in TV 
and radio public service announcements as well.
    Many companies within the industry, including my own, 
emphasize safety repeatedly through their own websites, company 
training, and customer education programs, publications, sales 
literature, product packaging, and safety signage.
    Of course, the purpose of these efforts is to prevent 
accidents and fatalities from occurring. It would be ideal if 
we could guarantee safety in all instances. In reality, we 
cannot; no industry can make that guarantee. For example, all 
the precautions in the world will not protect an intoxicated 
person who dives recklessly, head first, into the shallow end 
of a pool. Statistics do tell us, however, that while pool and 
spa use is rising, the rate of drownings is declining, and we 
believe that public awareness education is a major contributing 
factor. However, this is no comfort when a tragic loss occurs. 
Our goal remains to help make sure that each and every person 
who uses pools, does so safely.
    Finally, I'd like to conclude with a few comments about 
safety products, devices, and methods. Our industry is young 
and vibrant. New ideas for safety products and features are 
being developed all the time.
    To mandate any one device or method has the potential to 
create a false sense of security and to freeze one solution in 
place at the expense of new and better alternatives that may 
become available. Consumers must be allowed to benefit from 
safety innovation.
    Moreover, a safe pool environment involves many factors, in 
combination, and one size does not fit all when it comes to 
responsible pool ownership.
    Mr. Chairman, for decades swimming has remained the most 
popular form of exercise and recreation in America. Pools and 
spas are like many things we use and enjoy everyday. Built, 
maintained, and used properly, they are tremendously 
beneficial. However, built, used, or maintained improperly, 
they can be dangerous. Safety is critical to our industry and 
will always be our utmost concern. We will continue to work to 
promote, and to work with others to promote pool and spa 
safety.
    Thank you, Mr. Chairman. I look forward to responding to 
any questions you or other members of the Subcommittee may 
have.
    [The prepared statement of Mr. Laven follows:]

Prepared Statement of Mark Laven, President/CEO, Latham International; 
   on behalf of The Association of Pool and Spa Professionals (APSP)

    Chairman Allen and distinguished Members of the Subcommittee:
    My name is Mark Laven, President and CEO of Latham International, 
the leading manufacturer of in-ground swimming pools in North America. 
Latham is a 50-year-old company with 1,200 employees at 20 
manufacturing locations in the U.S. and Canada. Like many in the pool 
and spa industry, I am the third generation of my family to be 
associated with my company, and with the industry. In many ways, we are 
a family-oriented industry.
    Today, I am testifying on behalf of The Association of Pool and Spa 
Professionals, APSP, the international trade association of the pool 
and spa industry. In this regard, when I use the term ``we,'' I am 
referring to APSP and the industry as a whole, not my company. We, 
collectively, thank the Subcommittee for holding this hearing, 
highlighting the critical importance of pool safety, particularly 
during National Safe Kids Week. We have participated in events 
sponsored by Safe Kids Worldwide and others to educate caregivers on 
pool safety measures. Safety is a core belief and commitment of this 
industry, and we appreciate the opportunity to participate here today.
    Our industry touches millions of people. In this country alone, 
there are approximately 4.7 million in-ground pools, many with 
adjoining spas, 3.6 million above-ground pools, and 5.4 million 
portable hot tubs in use today.
    Briefly, APSP, formerly NSPI, the National Spa and Pool Institute, 
is headquartered in Alexandria, Virginia, and has approximately 4,500 
members, largely in North America. Its members are comprised of pool, 
spa and equipment manufacturers, builders, distributors, retailers and 
service companies, and their employees. Associated members include 
public health officials, building code officials and others with an 
interest in the pool and spa industry, and aquatics in general. 
Membership is voluntary, but all members agree, by a Code of Ethics, 
``to contribute to the health, safety and welfare of the public in the 
installation, maintenance and operation of swimming pools, spas and hot 
tubs, and to comply with applicable laws, ordinances and regulations.''
    Since its inception, APSP has been committed to promoting the safe 
and enjoyable use of pools and spas, as have many of its members, 
including my own firm, Latham International. In this statement, I'd 
like to summarize how we carry out this commitment. Additional detail 
is provided in the Appendix we have submitted for the record.
    APSP and the industry promote safety by advocating widespread use 
of pool and spa standards approved by ANSI, the American National 
Standards Institute, and by education, training and disseminating 
safety information.

ANSI-Approved Pool and Spa Standards
    Currently, APSP and the industry support comprehensive pool and spa 
construction and design standards. These standards are developed in 
accordance with the rigorous third-party consensus review process of 
ANSI. Eight standards are in effect, and one additional Standard is 
pending. A principal purpose of these standards is the prevention of 
three major concerns of pool safety--drownings, diving accidents and 
suction entrapment.
    The ANSI standards are continually reviewed and revised to reflect 
new methods and technologies that enhance safety. We advocate their 
widespread use within the industry, and we continue to promote their 
adoption by state and local officials.

Education and Safety Information
    We emphasize safety in many educational settings, at national and 
local levels both within and outside of the industry. APSP has 
developed comprehensive educational manuals and offers training and 
certification in both pool construction and servicing.
    Recognizing the critical need to deliver safety information 
directly to pool and spa owners and parents, APSP's consumer awareness 
and public outreach programs feature a wide array of brochures and 
publications, with titles like ``Important Safety Information'' and 
``Children Aren't Waterproof.'' All of these are available to the 
public at no charge by calling 800-323-3996, APSP's toll-free consumer 
contact number.
    Four related APSP websites further extend safety outreach to the 
public. TheAPSP.org, PoolPeopleUSA.com and HotTubLiving.com all contain 
important water safety information, and a special site for kids, 
SplashZoneUSA.com, teaches water safety with online fun and games. 
Safety is also highlighted in TV and radio public service 
announcements.
    Many individual companies within the industry, including my own, 
emphasize safety repeatedly through our own websites, company training 
and customer education programs, publications, sales literature, 
product packaging and safety signage.
    Of course, the purpose of all these efforts is to prevent accidents 
and fatalities from occurring. It would be ideal if we could guarantee 
safety in all instances. In reality, we cannot; no industry can make 
that guarantee. For example, all the precautions in the world will not 
protect an intoxicated person who dives recklessly, head-first, into 
the shallow end of a pool. Statistics do tell us, however, that while 
pool and spa use is rising, the rate of drownings is declining, and we 
believe that public awareness education is a major contributing factor. 
However, this is no comfort when a tragic loss occurs. Our goal remains 
to help make sure that each and every person who enjoys the use of 
pools and spas does so safely.
    Finally, I'd like to conclude with a few comments about safety 
products, devices and methods. Our industry is young and vibrant. New 
ideas for safety products and features are being developed all the 
time.
    To mandate any one device or method has the potential to create a 
false sense of security and to ``freeze'' one solution in place at the 
expense of new and better alternatives that may become available. 
Consumers must be allowed to benefit from safety innovation.
    Moreover, a safe pool environment involves many factors, in 
combination, and ``one size does not fit all'' when it comes to 
responsible pool ownership.
    Mr. Chairman, for decades swimming has remained the most popular 
form of exercise and recreation in America. Pools and spas are like 
many things we use and enjoy everyday: built, maintained and used 
properly, they are tremendously beneficial; however, built, used or 
maintained improperly, they can be dangerous. Safety is critical to our 
industry and will always be our utmost concern. We will continually 
work to promote, and work with others to promote pool and spa safety.
    Thank you, Mr. Chairman. I look forward to responding to any 
questions you or other members of the Subcommittee may have.

                                Appendix

    In his statement, Mr. Laven states that the pool and spa industry 
promotes safety through advocating ANSI-approved industry standards and 
through multiple safety education and communication initiatives. This 
Appendix provides additional information about these initiatives.

The ANSI Standards
    Utilizing the process of the American National Standards Institute 
(ANSI), the APSP (formerly NSPI, the National Spa and Pool institute) 
has sponsored the development of a number of industry standards 
relating to public pools, residential in-ground and aboveground pools 
and spas and hot tubs. APSP promotes the development of consensus 
standards, but does not, itself, write the standards. At one point, 
APSP formed the International Aquatic Foundation (IAF) with the 
intention that the Foundation would house the standards initiatives, 
but all standards initiatives now reside in APSP itself.
    Attached are two examples of the standards:

  <bullet> The ANSI/IAF-8 2005 American National Standard Model Barrier 
        Code for Residential Swimming Pools, Spas and Hot Tubs. The 
        purpose of this Standard is to establish layers of protection, 
        such as fencing, to supplement adult supervision in denying, 
        delaying or detecting unsupervised entry to a pool or spa by 
        the most at-risk age group, children less than five years of 
        age.*

  <bullet> The BSR/IAF-7 Draft Standard For Suction Entrapment 
        Avoidance in Swimming Pools, Wading Pools, Spas, Hot Tubs and 
        Catch Basins. This draft standard, currently in the ANSI public 
        review process, consolidates and updates all the provisions 
        pertaining to suction outlet entrapment avoidance that 
        currently are contained in each of the other standards. *
---------------------------------------------------------------------------
    * The information referred to has been retained in Committee files.

    (Draft standards in the process of public review are referred to as 
``BSR,'' the Board of Standards Review of ANSI.)
    In addition to these two standards, one in effect and one pending, 
the remaining standards currently in effect are:

  <bullet> ANSI/NSPI-1 2003 American National Standard for Public 
        Swimming Pools.

  <bullet> ANSI/NSPI-2 1999 American National Standard for Public Spas.

  <bullet> ANSI/NSPI-3 1999 American National Standard for Permanently 
        Installed Residential Spas.

  <bullet> ANSI/NSPI-4 1999 American National Standard for Aboveground/
        Onground Residential Swimming Pools.

  <bullet> ANSI/NSPI-5 2003 American National Standard for Residential 
        Inground Swimming Pools.

  <bullet> ANSI/NSPI-6 1999 American National Standard for Residential 
        Portable Spas.

  <bullet> ANSI/IAF-9 2005 American National Standard for Aquatic 
        Recreational Facilities.

    Pursuant to ANSI requirements, all standards are routinely updated.
    The APSP continually communicates with state and local code 
officials and the International Code Council (ICC) in an effort to 
codify these ANSI-approved pool and spa standards into appropriate laws 
or regulations. This has resulted in the inclusion of the existing 
standards as appendices to current and prior editions of the 
International Residential Code (RC).
    Twenty states directly reference all or portions of one or more of 
these standards in their state codes. The IRC has been adopted in 
thirty-three states and in fourteen other states at the local level.
    Further information about the standards and ANSI is available at 
www.ANSI.org. Further information about the International Code Council 
is available at www.ICCSafe.org.

Education and Safety Information
    The APSP and the industry routinely and affirmatively emphasize 
safety through multiple educational and communication initiatives, both 
for the industry and the general public. Examples include:

  <bullet> Comprehensive educational manuals, training and 
        certification programs for pool and spa construction and 
        servicing.

  <bullet> APSP continuing education seminars and programs at the 
        national, regional and local chapter levels.

  <bullet> TV and radio public service announcements which reach 
        approximately 100 million people.

  <bullet> The APSP website, www.TheAPSP.org which links users. the 
        public and the industry to free safety brochures and 
        information.

  <bullet> Linked websites promoting safety, such as 
        www.PoolPeopleUSA.com; www.HotTubLiving.com; and 
        www.SplashZoneUSA.com (which is directed specifically to 
        children).

  <bullet> APSP brochures, such as ``Important Safety Information,'' 
        ``Children Aren't Waterproof,'' ``Layers of Protection,'' and 
        ``The Sensible Way to Enjoy Your (Inground Pool/Aboveground 
        Pool/Spa or Hot Tub),'' which are obtained in hard copy or 
        through the APSP website. Each year over a million of these 
        brochures are placed in the hands of consumers.

  <bullet> The APSP maintains a toll-free number (800-323-3996) where 
        industry and the public can access free consumer information 
        brochures.

  <bullet> Numerous programs by individual firms within the industry 
        aimed at educating their dealers and customers on safety 
        issues.

  <bullet> Manufacturer, dealer and builder customer information 
        packages that communicate directly to pool owners and users 
        through APSP brochures, manuals and signage.

    The APSP has and will continue to work on improving pool and spa 
safety and public awareness with the Consumer Products Safety 
Commission (CPSC), American Red Cross, Centers For Disease Control and 
Prevention (CDC), Safe Kids Worldwide, National Drowning Prevention 
Alliance, National Sanitation Foundation (NSF), World Waterpark 
Association, The National Swimming Pool Foundation (NSPF), Underwriters 
Laboratory (UL), National Fire Protection Association (NFPA), The 
American Society of Testing and Materials (ASTM), American Society of 
Mechanical Engineers (ASME), National Environmental Health Association, 
American Public Health Association (APHA), American Hotel and Lodging 
Association, National Recreation and Parks Association, and numerous 
state and local public safety officials. Many of these groups have 
participated in the ANSI review process for the ANSI/APSP standards.

    Senator Pryor. Thank you.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Senator, if I may----
    Senator Pryor. Yes.
    The Chairman.--interrupt before Mr. Korn--as Chairman of 
the Full Committee, I think I speak for myself and Senator 
Inouye, we're looking forward to seeing the Congresswoman's 
bill and we hope that we'll see it soon. I can assure everyone 
interested, that we are going to give full consideration to a 
bill on--regarding this issue, as soon as we can get one before 
us.
    I spent some of my younger years as a lifeguard on the 
beaches and at swimming pools. And I can tell you, I'd rather 
be at a beach anytime. The pool is enough to make anyone a 
nervous person. But I do think that much more can be done to 
improve the safety of these pools and I think that we ought to 
take the lead in setting forth some real standards for the 
construction design. I look forward to working with the 
Consumer Product Safety Commission on this and the two of you, 
as Chairman and Ranking Member of the Subcommittee. But I do 
believe we should take some action and we should really set 
some real standards for the Commission and for the industry to 
understand that particularly the deaths of young children 
resist--they can be avoided and I believe that we should take 
action to assure that their--to the maximum extent, they are 
avoided. Thank you very much.
    Senator Allen [presiding]. Thank you. I consider you still 
a Chairman. No matter what, he is the Chairman. That this is 
the Subcommittee, that he's the Chairman of the whole committee 
and thank you, Mr. Chairman----
    The Chairman. Thanks.
    Senator Allen.--for being here and for your great 
leadership on so many fronts. Now, we'll go to Mr. Korn, as far 
as your testimony is concerned.

STATEMENT OF ALAN KORN, J.D., DIRECTOR OF PUBLIC POLICY/GENERAL 
                  COUNSEL, SAFE KIDS WORLDWIDE

    Mr. Korn. Mr. Chairman, Senator Pryor, thank you for 
holding this hearing and for giving Safe Kids Worldwide the 
opportunity to testify. One can't hear the Baker family story 
without asking what we can do. In fact, it was Nancy's story 
and her personal visit to our office that first motivated us to 
do more and do more formally during Safe Kids Week which starts 
next week.
    Don't get me wrong, we want kids to enjoy the summer in our 
nation's pools, but we can't throw caution to the wind. There 
are dangers associated with pools and spas. You've heard the 
numbers, I won't repeat them here. Suffice it to say, far too 
many children are dying or being permanently injured from a 
near drowning. Senator Pryor, you mentioned earlier, about 
three deaths in the past 2 weeks. It's actually nine deaths in 
the past 2 weeks and I have the clippings here.
    The vast majority of these deaths were due to children 
having unfettered or very easy access to pools or spas. Or, as 
a result of adults not properly supervising children while 
swimming. But swimming pools and spas present, as you've heard, 
a hidden danger: drain entrapment, hair entanglement, and 
evisceration. These types of entrapments occur when a part of 
the child becomes attached to the drain because of the powerful 
suction of the pool or spa's water circulation system. This 
risk, unlike the more common form of drowning described 
earlier, has nothing to do with the lack of proper adult 
supervision, but has everything to do with the flaws in the way 
pools are built and maintained in this country.
    From 1985 to 2004, about 36 children have died and about 
100 have been seriously injured. And these are permanent 
serious injuries. This isn't like falling off of a bike, like 
breaking an arm, a stitch, these are brain--serious permanent 
brain damage.
    However, and Senator Allen, you mentioned earlier, we 
believe the numbers of entrapment deaths could be much higher 
because the deaths or injuries, as it relates to entrapment, 
are often mis-classified. For example, on Graeme Baker's death 
certificate, the cause was listed as drowning only, with no 
mention of the mechanism of the fatality. Safe Kids believes 
that this type of incomplete mis-characterization happens more 
often than not, and therefore the actual incidents are much 
higher.
    I'll lift my head up from my prepared notes to talk about 
this next concept of layers of protection. We've heard a lot 
about them and I think it is important to kind of see, touch, 
and feel them as we move forward.
    The first is the isolation fencing. I think everyone's in 
agreement that pools should have barriers that prevent the 
unfettered access to children getting into pools, neighbors' 
pools, or your own pools--isolated fencing around the pool. In 
fact, our view of the newspaper clippings, not a scientific 
review, determined that all but one of those deaths in the past 
2 weeks could have been prevented by appropriate fencing with 
self-locking gates, where children--small children, as young as 
two and in one case, of twins. A family, just on Sunday or 
Saturday, lost twins, two 4-year-olds, by getting access to a 
pool. We think four-sided fencing with self-latching gates, is 
an important component to that.
    The second layer of protection, is what you've heard, 
addresses the entrapment. And let me just show you, just by way 
of a visual. This is a drain that you find in many pools in the 
country and spas. It's flat. It also has the grate. And what 
happens is a part of the body gets attached to the drain. The 
powerful suction holds you down and you can't break the seal. 
This is what happened to Graeme Baker. Also, the hair can get 
caught in the grates, getting tangled, and you can't pull 
yourself free. A dangerous drain.
    Well, we prefer part of the layer of protection that you 
heard the Consumer Product Safety Commission talk about, which 
is called an anti-entrapment drain. And you can see, it's 
engineered a little differently. It's dome-shaped. This is not 
the only one, there are other ones out there. But they are 
designed to prevent that seal from happening in the first 
place, so you don't have the entrapment at the bottom of the 
pool.
    Third, fences, drain covers, and safety vacuum relief 
system. It is safety vacuum and release systems and I have one 
right here. A little cumbersome, but you can see what they look 
like. And this automatically shuts off the pump, the 
circulation system, if it detects an unnatural blockage or any 
blockage in the drain at the bottom of the pool.
    Usually panicked family members--we have a witness who can 
speak better to that--run, panicked, searching for how to turn 
off the mechanism and they can't. This automatically does it. 
In fact, there's a family sitting in the audience who had a 
daughter die in a pool at a hotel. They had to shut off the 
electricity in the hotel in order to break the seal. So, this 
automatically does that. It's a passive safety device, which I 
think is an important concept.
    The other, which has been talked about pretty extensively 
and I won't spend too much time on it, is dual drains. 
Obviously, multiple drains--the more drains you have at the 
bottom of the pool, the less source suction you have in each 
one of those pools. So, at least moving forward, it is an 
expensive fix, by the way. But at least, moving forward for new 
pools, dual drains are a very important concept to consider.
    We would be remiss if we didn't talk about, on top of the 
environmental precautions, active supervision. Because really, 
this is a very important component and a focus for us in 
addition to these layers. We believe in fact, this is one of 
the most important prevention steps to address the most common 
type of pool drowning and that's adult supervision--active 
adult supervision. Unfortunately, many parents do not realize 
the importance of active adult supervision at all times. Active 
supervision means that a parent or caregiver is giving 
undivided attention to a child and is close enough to help in 
case of emergency.
    Previous research that we've done revealed that 9 out of 10 
children who drown in pools are being supervised and as you 
might expect, that supervision was inadequate. It's one of 
those cases, Senators, where you have everybody watching the 
pool, but nobody's really watching the pool.
    We're going to be distributing this week with our partner, 
Johnson & Johnson, during Safe Kids Week, water watcher cards. 
I've seen this work. I'm going to use it myself this summer. 
When you're at a pool, pool party, at a summer camp, enjoying a 
graduation party that's about to start, you assign parents to 
wear a water watcher card. And you just slip it around your 
neck and it changes the feel around the pool. Then you've got 
two or three adults standing by the pool, who are completely 
focused on what's going on at the pool. You're not conflicted 
by the music, or the barbeque, or the socializing. And then 15 
or 20 minutes later, you take it off, and you exchange, and it 
adds that layer of responsibility there. I've seen it used. I 
plan on using it myself when my 6-year-old is enjoying the 
summer fun in pools.
    I do want to spend a second talking about the bill that's 
about to be introduced in the House. Safe Kids will strongly 
support this bill introduced by Congresswoman Debbie Wasserman 
Schultz. It's called the Pool and Spa Safety Act. And it's 
intended to increase the safety of swimming pools and spas by 
motivating states that pass laws that incorporate these layers 
of protection. If enacted, the legislation would provide 
incentive grants, Senator Allen mentioned this, to states that 
call for all swimming pools and spas to have the layers of 
protection we talked about here.
    Congressional incentives--Congressional Incentive Grants to 
encourage states to pass safety legislation is not a new 
concept. Congress has used this mechanism often to promote 
state transportation safety laws, some of which, were included 
in the most recent SAFETEA-LU legislation. In fact, I think 
these incentive grants originate in the Commerce Committee as a 
way to motivate states to input safety behaviors.
    Safe Kids believes that the Pool and Spa Safety Act, which 
will be introduced next week, could do for pool safety what 
incentive grants have done for booster seat laws, primary 
enforcement seat belt laws, .08 drunk driving laws, and open 
container prohibition laws--that incentivizing of states to do 
the right thing.
    We would hope that we could find a companion bill in the 
Senate. We're happy to continue the discussion, as you say, 
Senator Allen, at least educating the Committee about these 
issues.
    We hope this hearing and the attention surrounding our Safe 
Kids Week will be a catalyst to continue this discussion. I can 
rest assured, we will be continuing, not only throughout this 
summer, but into the future addressing swimming pool safety to 
make sure that it is a fun time for all as they enjoy swimming 
in the pools. So, thank you very much Senator, both of you.
    [The prepared statement of Mr. Korn follows:]

   Prepared Statement of Alan Korn, J.D., Director of Public Policy/
                  General Counsel, Safe Kids Worldwide

    My name is Alan Korn, and I am the Director of Public Policy and 
General Counsel for Safe Kids Worldwide. It is my pleasure to testify 
before the Senate Consumer Affairs, Product Safety, and Insurance 
Subcommittee today. Mr. Chairman and Senator Pryor, thank you for 
allowing me to address the important topic of pool and spa safety, as 
drowning is a leading killer of children ages 14 and under.

I. History of Safe Kids Worldwide
    Safe Kids Worldwide is the first and only international 
organization dedicated solely to addressing an often under recognized 
problem: More children ages 14 and under are being killed by what 
people call ``accidents'' (motor vehicle crashes, fires, drownings and 
other injuries) than by any other cause. Formerly known as the National 
SAFE KIDS Campaign, Safe Kids Worldwide unites more than 450 coalitions 
in 16 countries, bringing together health and safety experts, 
educators, corporations, foundations, governments and volunteers to 
educate and protect families against the dangers of accidental 
injuries.
    Founded in 1987 by the Children's National Medical Center and with 
support from Johnson & Johnson, Safe Kids Worldwide relies on 
developing injury prevention strategies that work in the real world--
conducting public outreach and awareness campaigns, organizing and 
implementing hands-on grassroots events, and working to make injury 
prevention a public policy priority.
    The ongoing work of Safe Kids coalitions reaching out to local 
communities with injury prevention messages has contributed to the more 
than 40 percent decline in the childhood unintentional injury death 
rate during the past 15 years. However, with one out of every five 
children--or nearly 12 million children ages 14 and under--sustaining 
injuries serious enough to require medical attention each year, Safe 
Kids Worldwide remains committed to reducing unintentional injury by 
implementing prevention strategies and increasing public awareness of 
the problem and its solutions.

II. The Problem: Accidental Childhood Drowning in Swimming Pools and 
        Spas
    While water recreation provides hours of enjoyment and exercise for 
children, water and children can be a deadly mix when an unsafe 
environment or inadequate supervision is also present. In the United 
States, drowning remains the second leading cause of accidental injury-
related death among children ages 1 to 14 and the leading cause of 
accidental-injury-related death among kids ages 1 to 4. In 2003, 782 
children ages 14 and under died as a result of accidental drowning, and 
in 2004, an estimated 3,702 children in this age group were treated in 
emergency rooms for near-drowning, which often results in lifetime 
injuries, including permanent brain injuries. Of these drowning deaths, 
an estimated forty percent occur in pools. The vast majority of these 
deaths were due to children having unfettered or very easy access to 
pools/spas or as a result of adults not properly supervising children 
who were in the pool with permission. (For more statistics, see 
Attachment A: Backgrounder on Pool and Spa Safety.)
    Swimming pools and spas also present a hidden danger for children 
(and adult bathers and swimmers): the risk of drain entrapment. 
Entrapment occurs when part of a child becomes attached to a drain 
because of the powerful suction of a pool or spa's water circulation 
system. This happens much the same way one's hand might get stuck to 
the hose end of a vacuum cleaner. Young children are captivated with 
the suction created by a pool or spa circulation system, often playing 
in the suction path to feel the powerful pull of the water. This is 
often referred to as an ``attractive nuisance.'' That ``nuisance'' is 
magnified by the lack of awareness by most consumers (especially 
children) and the aging of pools in this country. Death or serious 
injury can occur when the force of the suction overpowers the child's 
ability to disengage from the drain and rise to the surface of the 
water. Often, the strength of an adult is still not enough to remove a 
child trapped by a pool or spa's drainage system. This risk, unlike the 
more common form of drowning described above, has nothing to do with 
the lack of proper adult supervision, but has everything to do with 
engineering flaws in the way pools are built and maintained.
    There are at least five different types of suction entrapment:

        1) Body Entrapment--where a suction of the torso becomes 
        entrapped;

        2) Limb Entrapment--where an arm or leg is pulled into an open 
        drain pipe;

        3) Hair Entanglement/Entrapment--where hair is pulled in and 
        wrapped around the grate of a drain cover;

        4) Mechanical Entrapment--where jewelry or part of a bathing 
        suit becomes caught in the drain or grate; and

        5) Evisceration--where the victim's buttocks comes in contact 
        with the pool suction outlet and he/she is disemboweled.

    Each of these ``entrapments'' almost always results in death or 
permanent serious injury.
    From 1985 to 2004, records show that at least 33 children ages 14 
and under died as a result of pool and spa entrapment, and nearly 100 
children were seriously injured. Entrapment deaths can also occur when 
a child's hair or swimsuit gets tangled in the drain or on an 
underwater object, such as a ladder. Forty-one percent of the deaths 
were hair-related entrapments. Fifty-two percent of these fatalities 
occurred in spas or hot tubs, thirty-nine percent in swimming pools, 
and nine percent in combination pool/spas.
    However, according to the U.S. Consumer Product Safety Commission 
(CPSC) and Safe Kids Worldwide, the number of entrapment deaths could 
be much higher than reported. Due to the fact that entrapment is a 
little-known risk for drowning, it is possible that many drowning 
deaths have not been classified as entrapment and that the number of 
deaths is probably higher than reported. For example, in the case of 
Nancy Baker's daughter and former Secretary of State James Baker's 
granddaughter, Graeme's cause of death was listed as a ``drowning'' 
only with no mention of the mechanism of the fatality on the death 
certificate. Safe Kids believes that this type of incomplete 
characterization happens more often than not, and therefore, the actual 
incidences of entrapment/entanglement/evisceration is much higher than 
reported.
    As pools and spas become more common among consumers and existing 
pools and spas age and require maintenance, the potential risk of 
injuries and deaths from entrapment increases. The number of 
residential swimming pool owners increased by approximately 600,000 
from 2002 to 2004, and the number of residential spa owners increased 
by about 800,000 over the same period.
    Drowning, in all its forms, is usually quick and silent. A child 
will lose consciousness two minutes after submersion, with irreversible 
brain damage occurring within four to six minutes. The majority of 
children who survive without neurological consequences are discovered 
within two minutes of submersion, and most children who die are found 
after 10 minutes.
    For children who do survive, the consequences of near-drowning can 
be devastating. As many as 20 percent of near-drowning survivors suffer 
severe, permanent neurological disability, the effects of which often 
result in long-lasting psychological and emotional trauma for the 
child, his or her family and their community. Near-drownings also take 
a tremendous financial toll on affected families and society as a 
whole. Typical medical costs for a near-drowning victim can range from 
$75,000 for initial treatment to $180,000 a year for long-term care. 
The total cost of a single near-drowning that results in brain injury 
can be more than $4.5 million. The total annual lifetime cost of 
drowning among children ages 14 and under is approximately $5.7 
billion, with children ages 4 and under accounting for $3.4 billion, or 
nearly half, of these costs.

III. The Solution: Layers of Protection and Active Supervision
    As a result of these alarming statistics, Safe Kids has promoted 
two primary ways to prevent pool and spa drownings and entrapments: 
safety devices to guard the pool and prevent entrapment, and active 
supervision.

A. Use of Environmental Safety Devices: Layers of Protection

1. Four-Sided/Isolation Fencing
    One of the most effective ways to reduce child drownings in 
residential pools is to construct and maintain barriers to prevent 
young children from gaining unsupervised access to pools. Studies show 
that installation and proper use of four-sided isolation fencing could 
prevent 50 to 90 percent of residential pool drowning and near-drowning 
incidents among children. Isolation fencing (enclosing the pool 
completely) is more effective than perimeter fencing (enclosing 
property and the pool) because it prevents children from accessing the 
pool area through the house. If the house is part of the barrier, the 
doors and windows leading to the pool should be protected, at the very 
least, by an alarm or a powered safety cover for the pool. Safe Kids 
also recommends that pool fences have a secure, self-closing, self-
latching gate and also isolate the pool from the residence. The CPSC 
has crafted suggested recommendations, entitled Safety Barrier 
Guidelines for Home Pools, which details specifically how pool owners 
and pool installation companies should construct fencing to best 
prevent the unsupervised access to pools by children. Some localities 
and a few states have used these guidelines as a basis for their own 
laws.

2. Anti-Entrapment Drain Covers
    In addition to the barriers to the water, there are other devices 
designed specifically to protect against entrapment. Another layer of 
protection involves the installation of anti-entrapment drain covers. 
Anti-entrapment drain covers are recommended to help prevent the 
suction from drawing the body or hair into the drain. Anti-entrapment 
drain covers are not flush to the bottom of the pool or spa, like many 
dangerous grates and outlet covers in pools/spas today. Anti-entrapment 
covers are drain fittings that are specifically designed to prevent the 
circular or swirling motion of the water that tends to form a vacuum or 
suction and draws hair or the body into the drain pipe. Safe Kids 
recommends that pool owners (both private owners and commercial 
operators) have their pools/spas inspected by pool maintenance 
professionals for dangerous or broken covers and have them replaced 
with safer covers before pools/spas are used for the summer. These 
drain covers have a retail price of approximately $30-$60.

3. Safety Vacuum Release Systems
    Safety vacuum release systems (SVRS) are intended to detect any 
blockage of a drain, automatically and immediately shutting off the 
suction to prevent entrapment. This immediate shut off feature 
eliminates the need for a witness to an entrapment, usually a panicked 
family member, from searching around for the on/off switch to turn off 
the pool pump. The search costs precious seconds and usually by the 
time the switch is found, it is too late. These safety devices have a 
suggested retail price between $375-$800.

4. Dual Drains
    To ensure a safe environment, Safe Kids advises pool and spa owners 
to install multiple drains, not just one, in order to decrease the 
amount of suction at the drain site. Although this safety adaptation is 
admittedly costly and labor intensive for existing pools since the 
bottom of the pool would have to be dug up, this safety feature should 
be a part of the construction for all new pools and spas being built.
    The CPSC recommends each of these safety devices (safer drain 
covers, SVRS and dual main drains) as a way to reduce the risk of 
entrapment, entanglement and evisceration.
    See the CPSC's Guidelines for Entrapment Hazards: Making Pools and 
Spas Safer (March 2005).
    Safe Kids also believes that pool service companies, and in 
particular, their technicians, need to be better educated about these 
``layers of protection'' and should more regularly inform pool owners 
and operators about these important environmental changes and safety 
devices. The pool service visit each May should not only include 
preparing the pool for the summer's activities, but should also include 
an inspection for these hidden hazards and installation of the 
appropriate layers of protection.

B. Active Supervision of Children
    In addition to environmental precautions, parents and caregivers 
must also actively supervise children whenever water is present. 
Unfortunately, many parents do not realize the importance of active 
supervision around water at all times. Active supervision means that a 
parent or caregiver is giving undivided attention to the child and is 
close enough to help the child in case of emergency.
    In a previous Safe Kids' study, research revealed that nine of out 
of ten children who drowned were being supervised. Our 2004 study, 
Clear Danger: A National Study of Childhood Drowning and Related 
Attitudes and Behaviors, showed that in 88 percent of drowning cases 
reviewed, the victim was under some form of supervision when he or she 
drowned--in most cases, being supervised by a family member. Forty-six 
percent of drowning victims were in the care of a parent at the time of 
the incident. Twenty-six percent were in the care of a relative other 
than a parent, including 5 percent in the care of a sibling younger 
than 18 years of age and 6 percent in the care of a grandparent. These 
results are consistent with past studies indicating that childhood 
drownings and near-drownings typically occur when a child is left 
unattended or during a brief lapse in supervision.
    In that survey, nearly all parents (94 percent) reported that they 
always actively supervise their children while swimming. However, 
deeper examination revealed that parents participated in a variety of 
distracting behaviors while supervising, including talking to others 
(38 percent), reading (18 percent), eating (17 percent), talking on the 
phone (11 percent) and even closing their eyes and relaxing (4 
percent).
    Safe Kids was alarmed at the disconnect between parents recognizing 
the potential danger of water activities and their subsequent lack of 
full attention when supervising their children. As a result of these 
findings, Safe Kids and its coalitions will continue to promote the 
proper practice of active supervision, especially as kids are in and 
around water this summer season.

IV. Safe Kids' Support of the Pool and Spa Safety Act
    Safe Kids knows that installation of the layers of protection will 
go a long way to protecting children from the potential dangers of 
residential and publicly-operated pools and spas. Four states have 
enacted residential pool fencing laws and no state has a comprehensive 
pool safety law on its books. Accordingly, Safe Kids strongly supports 
the enactment of the Pool and Spa Safety Act and applauds Congresswoman 
Debbie Wasserman Schultz for her leadership in introducing this 
legislation. We also commend former Secretary of State James Baker and 
Nancy Baker for sharing their personal story about the loss of Virginia 
Graeme Baker and for their advocacy efforts in support of this 
important piece of legislation.
    The Pool and Spa Safety Act is intended to increase the safety of 
swimming pools and spas by motivating states to pass laws that 
incorporate the layers of protection in order to help prevent drowning, 
entrapment and hair entanglements. If enacted, the legislation would 
provide incentive grants to states that call for all swimming pools and 
spas to have the following layers of protection:

  <bullet> A wall, fence or barrier that entirely encloses the pool;

  <bullet> Self-closing and self-latching gates for any walls, fences 
        or barriers;

  <bullet> A drain system that contains two suction outlets per pump 
        (for new pools only);

  <bullet> A safety suction outlet drain cover that meets the CPSC's 
        guidelines; and

  <bullet> A safety vacuum release system.

    Congressional incentive grants to encourage states to pass safety 
legislation are not a new concept. Congress has used this mechanism 
often to promote state transportation safety laws, some of which are 
included in the recently passed SAFETEA-LU Federal highway law. Safe 
Kids believes that the Pool and Spa Safety Act could do for pool safety 
what incentive grants have done for booster seat child occupant 
protection laws, primary enforcement safety belt laws, .08 drunk 
driving laws and open container prohibition laws.
    The bill also has two important industry and consumer awareness/
education components. First, the bill would require states to use at 
least 50 percent of the awarded grant to hire and train personnel to 
properly enforce the law, and to educate pool construction/installation 
companies, pool service companies and consumers about the new law and 
about drowning prevention tips.
    In addition, passage of the legislation would enable national 
public education programs on pool and spa safety to be implemented 
through the CPSC and partner organizations. The need for this type of 
consumer awareness program is overwhelming. Safe Kids, in its most 
recent research, has found that the vast majority of American pool and 
spa owners do not install many of the recommended devices in and around 
their pools and spas. The legislation attempts to address this lack of 
appropriate safety devices. Swimming pool owners would be targeted with 
information on ways to prevent drowning and entrapment, and educational 
materials would be designed and disseminated through pool 
manufacturers, pool service companies and pool supply retail outlets.
    Safe Kids hopes that the Senate considers a companion bill to the 
Pool and Spa Safety Act.

V. Safe Kids Week 2006: Safe Pools for Safe Kids
    As a result of the deaths and injuries due to drowning and 
entrapment, Safe Kids Worldwide will be launching a water safety 
initiative, Safe Pools for Safe Kids, during Safe Kids Week 2006 (May 6 
to 13). National Safe Kids Week has been held annually for 13 years and 
has been supported each of these years by Johnson & Johnson. This 
year's theme is Safe Pools for Safe Kids and more than 300 Safe Kids 
Week events will take place across the Nation to educate parents and 
pool/spa owners about how to keep kids safe from drowning.

A. Safe Kids Week 2006 Programmatic Components
    This year our campaign will include the following:

1. Safe Kids Local Community Events
    Our national network of 300+ coalitions and chapters will be 
conducting educational programming efforts to educate parents about 
pool and spa safety. These include community safety events at local 
venues, including schools, neighborhood pools, and home and garden 
shows.
    Many of our Safe Kids coalitions will also be lobbying their state 
legislatures about the importance of the ``layers of protection'' and, 
hopefully, helping to introduce our Safe Kids model pool safety 
legislation that addresses both traditional drowning incidents and the 
entrapment risks.

2. Johnson & Johnson's National Advertising Campaign
    Through a partnership with Turner Broadcasting, six public service 
announcements on the importance of active supervision and proper pool 
barriers were created. These spots will run on Turner Networks 
throughout the summer, such as CNN, Turner Sports, TNT, TBS and the 
Cartoon Network, reaching millions of families and pool owners.

3. Release of Our New Research Study
    Safe Kids' new report, Pool and Spa Drowning: A National Study of 
Drain Entrapment and Pool Safety Measures, was released yesterday in 
our national news conference. (More information below.)

4. Distribution of Our Consumer Education Pieces
    Through our coalitions, Safe Kids consumer educational materials on 
pool and spa safety will be disseminated in communities during Safe 
Kids Week and beyond. In addition, this information will be included on 
the Safe Kids website www.usa.safekids.org. Important safety messages 
to parents and caregivers are highlighted in both the print and online 
materials and include the following tips:

  <bullet> Warn your children about the dangers of drain entanglement 
        and entrapment, and teach them to stay away from the drain.

  <bullet> Install protection to prevent entrapment if you own a pool 
        or spa. Protective measures include anti-entrapment drain 
        covers, multiple drains in new construction, and a device to 
        automatically release the suction and shut down the pump should 
        entrapment occur.

  <bullet> Actively supervise your children around water, and have a 
        phone nearby to call for help in an emergency.

  <bullet> Ensure your pool has fencing around all sides and a self-
        closing, self-latching gate, to prevent a child from wandering 
        into the pool area unsupervised. In addition, spas should be 
        covered and locked when not in use.

  <bullet> Install a door alarm, a window alarm or both on the side of 
        the house facing the pool or spa to alert you if a child 
        wanders into the pool or spa area unsupervised.

  <bullet> Tie up long hair securely so that it will not get caught in 
        a pool or spa drain.

    Coalitions will also be distributing copies of our Water Watcher 
Card, which helps promote the concept of active supervision. Adults who 
are designated Water Watchers are responsible for actively supervising 
children in and around water during parties and other gatherings. The 
Water Watcher Card, worn around the adult's neck, also contains 
important information about what to do in case of an emergency. (For 
examples of our educational materials, see Attachment B: Pool and Hot 
Tub Safety Brochure and Attachment C: Water Watcher Card.)
    Our Safe Kids educational materials will also be supplemented by a 
retail component sponsored by Johnson & Johnson. Due to their support, 
consumers will be targeted with pool and spa safety messages in the May 
7th coupon insert in the Sunday newspaper and through in-store retail 
print materials from participating outlets. Consumers will also be able 
to pick up copies of the Water Watcher Card.

B. Key Findings of Pool and Spa Drowning: A National Study of Drain 
        Entrapment and Pool Safety Measures
    Key to our efforts is the release of our new research study, Pool 
and Spa Drowning: A National Study of Drain Entrapment and Pool Safety 
Measures (Attachment D). Our goal: to better understand why kids drown 
in pools and spas and what can be done to prevent these needless 
tragedies. Through our research, we discovered that:

  <bullet> Parents are not aware enough of the risk of their children 
        drowning. Only a third (34 percent) of parents recognized that 
        drowning is one of the top two causes of accidental death among 
        children. In the South and West, where the largest number of 
        drowning deaths occur, only 39 percent and 35 percent of 
        parents, respectively, were aware of this risk.

  <bullet> Parents are not aware enough of the risk of entrapment. This 
        finding is particularly alarming because research also reveals 
        that pool and spa ownership is becoming more popular. A 
        significant number of parents (29 percent) are not at all aware 
        of the risk of entrapment. While one out of two parents report 
        that they have a pool or spa at home (49 percent), 26 percent 
        of these pool and spa-owning parents are not at all informed 
        about ensuring the safety of their pool or spa drain.

  <bullet> Although devices are available to prevent drowning, 
        entrapment and entanglement, pool and spa owning parents are 
        not likely to have them installed. Only 15 percent of pool and 
        spa owning parents had anti-vortex drain covers and 12 percent 
        had safety vacuum release systems in place. Only 28 percent had 
        isolation fencing; 50 percent had perimeter fencing; and 34 
        percent had self-closing, self-latching gates.

  <bullet> While the majority of parents actively supervise their 
        preschool children, parents tend to become less attentive as 
        the children grow older. While 93 percent of parents say it's 
        necessary to stay in visual contact with a 2-year-old at all 
        times, this figure drops to 80 percent of parents expressing 
        this same necessity with a 6-year-old and then to only 42 
        percent with a 10-year-old.

    Our research tells a grim story of parents' lack of understanding 
of the dangers of pool and spa drains. The research also suggests 
parents' confidence in their children's safety while swimming may be 
higher than their children's abilities in the swimming pool, leaving 
children exposed to unnecessary risks.

VI. Conclusion
    Drowning is a complex issue with no single safety device or 
solution that works in all cases. Pool and spa safety requires a 
multifaceted strategy, including active supervision by a designated 
adult, safe water environments and public education, to ensure 
children's safety in and around water. Safe Kids commends this 
Subcommittee for convening this important consumer safety hearing and 
we look forward to working with you on any legislative initiatives and 
educational efforts designed to reduce the incidents of drowning.
                                 ______
                                 
            Appendix A--Backgrounder on Pool and Spa Safety
Drowning is the number two accidental injury-related killer of children 
        ages 1 to 14, and the leading cause of accidental injury-
        related death among kids ages 1 to 4.

  <bullet> In 2003, 782 children ages 14 and under died as a result of 
        accidental drowning. Children age 4 and under accounted for 62 
        percent of these deaths.

  <bullet> In 2003, 285 children died as a result of drowning in a 
        pool.

  <bullet> In 2004, there were an estimated 3,702 near-drownings among 
        children ages 14 and under.

Pool and Spa Entrapment and Entanglement
    Entrapment occurs when part of a child's body becomes attached to a 
drain because of the powerful suction of a pool or spa's water 
circulation system. Death or serious injury can occur when the force of 
the suction overpowers the child's ability to disengage from the drain 
and rise to the surface of the water. Often, the strength of an adult 
is still not enough to remove a child trapped by a pool or spa's 
drainage system. Entrapment deaths can also occur when a child's hair 
or swimsuit gets tangled in the drain or on an underwater object, such 
as a ladder.
    As pools and spas become more common among consumers, the potential 
risk of injuries and deaths from entrapment increases.

  <bullet> The number of residential swimming pool owners increased by 
        approximately 600,000 from 2002 to 2004, and the number of 
        residential spa owners increased by about 800,000 over the same 
        period.

  <bullet> From 1985 to 2004, at least 33 children ages 14 and under 
        died as a result of pool and spa entrapment.

        --Thirty-nine percent were hair-related entrapments.
        --Fifty-two percent of these incidents occurred in spas or hot 
        tubs, 39 percent in swimming pools, and 9 percent in 
        combination pool/spas.

  <bullet> From 1985 to 2004, nearly 100 children ages 14 and under 
        were injured as a result of pool and spa entrapment.

    According to Safe Kids Worldwide, entrapments and entanglements are 
generally little-known risks for drowning. As a result, many drowning 
deaths may not have been classified as entrapment and entanglement, and 
the number of deaths is probably higher than reported.
Drowning and Entrapment Prevention
    There are two primary ways to prevent pool and spa drownings and 
entrapments: safety devices to guard the pool and prevent entrapment, 
and active supervision.
    1) Use of environmental safety devices. These include pool, spa and 
door alarms; four-sided fencing; self-latching and self-closing gates; 
proper drains; and safety vacuum release systems (SVRS). SVRS detect 
any blockage of a drain, automatically and immediately shutting off the 
suction to prevent entrapment. To ensure a safe environment, it is also 
important for pool and spa owners to install multiple drains, not just 
one, in order to decrease the amount of suction at the drain site.
    Many pool owners do not take the proper environmental precautions 
to prevent accidental drowning.

  <bullet> Installation and proper use of four-sided isolation fencing 
        could prevent 50 to 90 percent of childhood residential 
        swimming pool drownings and near-drownings.

  <bullet> In 2005, 50 percent of pool/spa owners said they had 
        perimeter fencing (fence encloses pool/spa and property), but 
        only 28 percent reported having isolation fencing (fence 
        encloses pool/spa only).

  <bullet> Thirty-four percent of pool/spa owners have self-latching 
        and self-closing gates.

  <bullet> Only 21 percent of pool/spa owners reported having door or 
        window alarms, and even fewer (7 percent) said they had pool or 
        spa alarms.

  <bullet> Only 15 percent of pool/spa owners have anti-vortex drain 
        covers and 12 percent have SVRS.

    2) In addition to environmental precautions, parents and caregivers 
must actively supervise children whenever water is present. 
Unfortunately, many parents do not realize the importance of active 
supervision around water at all times. Active supervision means that a 
parent or caregiver is giving undivided attention to the child and is 
close enough to help the child in case of emergency.

  <bullet> Many parents (55 percent) believe that supervision is 
        sometimes not necessary when children are swimming.

  <bullet> As children get older, parental supervision becomes more 
        lax. While 93 percent of parents believe it's necessary to stay 
        in visual range of a 2-year-old child at all times, this 
        necessity quickly falls off. By the time children are age 6, 
        only 80 percent of parents say it is necessary to stay in 
        visual range at all times. By age 10, fewer than half (42 
        percent) say the same.

  <bullet> Forty-five percent of parents overall said they talk to 
        someone else while supervising their swimming child, and 26 
        percent reported reading a magazine or book while watching 
        their child.

  <bullet> Nearly nine out of 10 drowning-related deaths happen while 
        the child is under some form of supervision.

Pool and Spa Drowning
    According to a 17-state review of childhood drowning deaths in 
2000-2001, most young children (68 percent) were not intended to be in 
the water at the time they drowned. However, more children ages 14 and 
under die from drowning while swimming in a pool than die from falling 
into a pool.

  <bullet> In 2003, 234 children ages 14 and under died as a result of 
        accidental drowning while in a swimming pool.

  <bullet> Fifty-one children ages 14 and under died in 2003 as a 
        result of accidental drowning following a fall into a swimming 
        pool.

  <bullet> Younger children are more likely to be injured or killed as 
        a result of accidental drowning in pools or spas than older 
        children.

  <bullet> More than seventy percent of pool drownings or near-
        drownings occur among children ages 4 and under.

  <bullet> Nearly forty percent of drownings among children ages 4 and 
        under are pool-related.

  <bullet> Since 1980, more than 230 children ages 4 and under have 
        drowned in spas.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    Senator Allen. Thank you, Mr. Korn, Mr. Laven, Ms. Baker, 
for your testimony. Let me ask a few questions here, one, how 
many of these nine deaths that have occurred so far this year, 
how many of them were entrapment versus drowning?
    Mr. Korn. These were----
    Senator Allen. Do you know?
    Mr. Korn. Yes. Senator, these were all the common, as I--
the common form of drowning. A child getting unfettered access 
to a pool. In most cases, it's a missing child and there's a 
panic, there's a search of the neighborhood, and then later, 
they search the pool to find either the twins at the bottom or 
the other boys and girls that have been found. One of the 
things we like to say whenever there's a missing child, the 
first place to check: the trunk of the car and the pool before 
you start searching the neighborhood. So, those--your comment 
is a good one. There have been no entrapments yet, this year.
    Senator Allen. Is----
    Mr. Korn. That we know of.
    Senator Allen. Is--all right. Well, those where they've 
drowned in the pool because they couldn't swim--deep end, 
whatever it may have been. Is there a difference in the suction 
pressure of a spa? I look at them as whirlpools, you know hot 
tubs. Is there a difference in the suction in those versus 
let's say, a single drain concrete pool? Mr. Laven, you'd 
probably know better than any.
    Mr. Laven. I think the distinction, Senator, between a pool 
and a spa is generally the depth at which the main drain is 
located. A typical hopper bottom pool would have eight feet of 
water. People aren't prone to sit at the bottom of an eight-
foot deep pool. They are prone to sit in a spa with shallow 
water. And that's why we're advocating the use of dual drains 
and a variety of methods to prevent suction entrapment.
    Senator Allen. Dual drains in these hot tubs, spas as well, 
but not necessarily in swimming pools.
    Mr. Laven. We recommend they're used in swimming pools as 
well.
    Senator Allen. All right. How much do these--what's the 
cost of a new drain cover?
    Mr. Korn. We've seen them in retail anywhere from $30 to 
$60, this one right here.
    Senator Allen. All right. And Mr. Laven, could those be 
fairly easily substituted into any pool drain?
    Mr. Laven. I welcome the opportunity to talk about SVRS. 
And in fact, I'd like to clarify the industry position with----
    Senator Allen. OK.
    Mr. Laven.--regard to them. I think----
    Senator Allen. Well, I was asking about these drain covers, 
but you can get into the SRVSs too.
    Mr. Laven. We don't oppose their use. In fact, we support 
anti-vortex drain covers and similar drain covers to this, that 
Mr. Korn has provided today. They prevent some, but not all 
forms of entrapment. We have no concerns whatsoever about the 
cost. Cost is not an issue from the perspective of the 
industry. There exists a number of effective methods to prevent 
entrapment and what we support is a standard that requires one 
or more means of protection against all forms of entrapment. We 
don't want to specify which one, as innovation will likely 
develop an even better method tomorrow.
    Part of our concern about the bill that is being proposed 
in the House, is that it specifies one and only one method, and 
it requires a certain product to be used. And we think that the 
direction of the bill is meritorious. We support the objective 
of preventing entrapment and drowning, but we believe that 
adoption of the industry standards within all 50 states, is a 
much better method than what is being proposed in this one 
piece of legislation.
    Ms. Baker. Mr. Chairman?
    Senator Allen. Yes, Ms. Baker?
    Ms. Baker. May I speak real quickly?
    Senator Allen. Sure. Of course.
    Ms. Baker. I just wanted to say----
    Senator Allen. Why don't you move your microphone.
    Ms. Baker. Is it better like that?
    Senator Allen. That's better. Yes.
    Ms. Baker. I have some concern about--I've read many things 
about reluctance to adopt standards that would be in place 
today, because of what might develop tomorrow, that might be a 
better means of addressing some of these hazards. However, 
everything else I've also read, and googled, and I spent a lot 
of time doing all of that, is that those devices over there are 
the only ones currently available that are tested that would 
prevent entrapment and that's all varieties. Those drain covers 
are meant to prevent hair entrapment and make it less likely 
for a child's body part or an adult's to be able to seal the 
cover.
    The SVRS device I believe, is the only device around that 
would detect a change in the pressure in the lines, which is 
what happens of course when suddenly the pipes are drawing air 
instead of water, because they're sealed. Do you understand 
that? I believe that's the only device out there that does--
that would shut the pump down. Because you see, when my 
daughter was entrapped, I didn't know what was holding her 
down. I thought she was being murdered. I thought that she was 
wired to the bottom. I'd never heard of such a thing. So, I 
wouldn't go running around looking around the yard for what 
to--you know what to cut off, as my friend, Mr. Amjad Ghori, 
who lost his child 6 months later. That hotel didn't figure out 
that it was the pump holding her down. They just--when all this 
was going on, they shut the electricity off because they didn't 
know any other way to free her.
    So, that's why I support this legislation. Because I don't 
know if there are any other answers out there. Why would you 
not fix a problem today with the tools that you have available, 
than to wait until tomorrow when something better comes along? 
I assume you'd just do what you can do now to save lives and 
make adjustments later when greater innovations come along, to 
my way of thinking.
    Senator Allen. As I understand it, there's not just one 
company that makes these SVRS's, is that correct, Mr. Laven?
    Ms. Baker. I think there are lots of them, there would 
probably be more if they----
    Mr. Laven. I believe there are two, and there may be more.
    Senator Allen. Two companies that manufacture them?
    Mr. Laven. SVRS, that's correct. But----
    Senator Allen. And in the event, that if you had a standard 
and it's--Ms. Baker and Mr. Korn may be more familiar with it, 
there are a lot of times we set standards and do not make them 
technologically specific. It's not necessarily and obviously in 
this subject area, but others. You find it particularly in the 
area of innovation. That you don't want to say, gosh, this is 
the only way, for example, that one will get broadband is by 
cable modem. You can get a DSL, you can it wirelessly, you can 
get it off power lines. There's a lot of different ways. So, 
you don't like to make things, because you don't want to stifle 
innovation or creativity.
    Now,are there--these are two examples and I'm sure there 
are other types of covers--drain covers. There are at least 
two, it's been stipulated, companies that manufacture these 
cutoff valves. If you do have two drains, supposedly then 
there's less suction since they're drawing from two. Those are 
just three right there, different sort of approaches that one 
would take. I would think a fourth one would be the reality 
that in a swimming pool that is a concrete pool or as opposed 
to a vinyl liner pool, and vinyl pools as I understand it, have 
no bottom drain in them. I suppose they could.
    But isn't also true, that if you use the cleaning--for the 
cleaning of it, you can use it off of your skimmers. Most pools 
have at least two skimmers on them and you do have that tube 
that goes through it. And I suppose, somebody could get all 
tangled up in the tube, as well. Life has its risks in living, 
which is part of the adventure of life.
    However, if there are reasonable approaches that can be 
taken to protect lives, whether it's these covers or in the 
future, say future pools as opposed to retrofitting, new pools 
being made have these--something like a suction relief approach 
or SVRS's as we call them. What would be wrong with that? Or 
also, allowing any other methods, Mr. Laven, in the standards 
that would--In other words, you can say those for examples and 
they're not exclusive, but they're included as well as any 
other approaches which would meet that same sort of goal, as 
shutting off suction if there's that interruption of a human 
being.
    Mr. Laven. The ANSI standards adopted by the Pool and Spa 
Industry Association provide for a variety of methods that are 
equally effective to the SVRS device. And that includes: dual 
drains, anti-vortex covers----
    Senator Allen. That's what that would be considered--an 
anti-vortex cover, right?
    Mr. Laven. Yes. That is one.
    Senator Allen. Just for the record.
    Mr. Laven. That's one design of an anti-vortex cover. Air 
relief plumbing is another alternative.
    Senator Allen. What is air relief plumbing?
    Mr. Laven. Air relief plumbing is where a section of PVC 
pipe is attached to the drain line and it would provide that 
when the cover--and it goes to daylight, it's out in the--above 
ground level. So that when entrapment occurs on the drain, air 
is drawn into the line and it stalls the prime of the pump. And 
therefore, it is an effective method and a cost-effective 
method as well, avoiding entrapment and providing a release.
    Pool covers, automatic pool covers are also effective 
methods to provide for avoidance of drowning in residential 
swimming pools. And as we said, we want to allow for the 
possibility of other designs to enter the market at some point 
down the road. But my point here, is that there are currently 
available designs, in addition to the ones that are stipulated 
in that legislation.
    Senator Allen. All right. Now, would there be a way of 
drafting legislation? This is the value and purpose of 
hearings, is to learn. So that in the event that the government 
acts, it acts in the right way and doesn't end up stifling 
innovation or having certain winners or losers in the midst of 
an effort to save folks. And I do like, if anything's going to 
be done, just personally, I'm speaking for no one other than 
myself, incentives. The .08 laws, the mandatory seat belt laws, 
and all that--I do not consider those incentives. I look at 
those as blackmail of the states. I'm for .08 blood alcohol 
level. We passed it when I was Governor. We don't need the 
Federal Government dictating that to the states, as far as I'm 
concerned. You and I would probably disagree, Mr. Korn. But, I 
just don't like nanny Federal Government bothering in those 
areas and I think there are more important things for law 
enforcement to worry about than our laps driving down the road. 
Although, there is a difference for children and that's 
probably one of the things that is most compelling here, and 
that is children. And if anything is going to be done, it ought 
to be an incentive as opposed to withholding of highway funds 
in the usual sort of blackmail you get out of the Federal 
Government over the years on a variety of approaches. And I'm 
not going to be a part of blackmail. I want to be for 
incentives.
    Now, if we're going to have incentives, let's make sure 
this makes sense. Wouldn't Mr. Laven's statements, as far as if 
we're going to pass legislation with incentives for the states 
to do--by the way, what they ought to be doing anyway whether 
you're in Florida, whether you're in California, Texas, 
Arizona, Virginia, or Maine, you ought to be doing what is 
right.
    And I would think that insurance companies are going to 
care about this. I would think that those who are in your 
industry, not wanting to get sued by not putting in the most--
and whoever works on a pool--by not putting in the most safe 
products or designs. Especially for henceforth or new pools. 
Would you not think that, Mr. Korn, if we could somehow get you 
two together and figure out a way--I don't know. Maybe there is 
no way of getting you all together and agreeing, but I think 
that you both share--all of us, every--all the witnesses and 
probably everyone in this room and I know Senator Pryor and I 
agree that we ought to try to find ways to improve pool safety. 
It will not make it absolutely safe.
    Being in water is inherently an adventure, just like riding 
a horse is an adventure. And people get injured riding horses, 
they get injured swimming, diving, and all the rest. I don't 
care to prevent it.
    But is there a way to meet what Mr. Laven is saying? And 
that is, have a goal, but not proscribing the specifics. You 
may include them, but not create liability and more 
importantly, to the extent there are more--there are additional 
approaches in the future, that they would be included in those 
standards adopted by the states.
    Mr. Korn. Senator, what you are referring to is what's 
referred to as a performance standard.
    Senator Allen. Uh-huh (affirmative).
    Mr. Korn. Where you have a goal of preventing entrapment, 
having pumps shut off immediately. You describe those goals and 
you allow the industry moving forward to meet that goal. Right 
now, we've got several products that meet it. But in the 
future, there could be something better. So, you work toward 
that performance-based standard and that's a possibility to 
look for. It's something that the CPSC can do and they do 
regularly.
    Senator Allen. So, it sounds to me, that you're in somewhat 
of agreement, if not in agreement with what Mr. Laven's 
concerns were with at least, in how this legislation is being 
crafted on the House side.
    Mr. Korn. I draw the analogy to the requirement for seat 
belts. It didn't prevent us to do it and air bags came later. 
Today in the marketplace, we have things that work: layers of 
protection. Let's utilize those layers of protection to save 
lives, and keep us flexible, and open as industry creatively 
thinks of new engineering and behavioral advice to prevent 
children from dying. So, that's how we kind of think about it. 
And we think the bill does get to that point.
    Ms. Baker. Chairman Allen, I'd also heard of a pool--I 
heard someone from the industry speak at a Drowning Prevention 
Symposium, who said, what about a pool with no drain? You know, 
there was a pool designed with no drain at all. Superb.
    Senator Allen. Right.
    Ms. Baker. I don't know that those pools are built.
    Senator Allen. They are.
    Ms. Baker. I haven't seen them. Too often----
    Senator Allen. They are.
    Ms. Baker. But again, does that avoid the entrapment issue? 
Yes. No drain. No entrapment.
    Senator Allen. Ms. Baker, I've talked to some folks who 
actually--of course they have the vinyl liner pools and they--
if anybody wants a bottom drain on it, they simply aren't going 
to put them in. The cleaning, they believe can be done--Mr. 
Laven, can you give me the terminology for the suction?
    Mr. Laven. There are wall drains as well as bottom drains, 
and there are pool cleaners that I think we were referring to 
before. But, the point of fact is----
    Senator Allen. They go off the skimmer or off the side, as 
opposed to----
    Mr. Laven. Yes. Cleaning devices that operate from the 
skimmer, by attachment to the skimmer.
    Senator Allen. Right. And no one's been sucked into a 
skimmer.
    Mr. Laven. That's correct.
    Senator Allen. Plenty of frogs and such, but not humans.
    Mr. Laven. The industry shares the goal of avoidance of 
drowning and we will work hard with both Ms. Baker, and Mr. 
Korn, and his agency to further that goal.
    Senator Allen. Do you know of the folks who are in your--
the contractors who would prefer to have construct pools that 
don't have a bottom drain? Isn't that the case with most of the 
vinyl liner pools, as opposed to a concrete?
    Mr. Laven. I actually believe that the majority of vinyl 
liner pools being constructed today, do contain dual main 
drains. However, I'm aware in many locales, that pools are 
being built without any main drains and that is perfectly 
acceptable within the framework of the current standard that 
was ANSI-approved.
    Senator Allen. Senator Pryor, do you have any questions?
    Senator Pryor. I do. I just have a few. Thank you, Mr. 
Chairman. Mr. Korn, let me ask you, I guess it's kind of a 
legal question and that is, do you think that the CPSC has the 
jurisdiction to mandate the safety devices on pools and spas 
without any more State or Federal law?
    Mr. Korn. I do. The CPSC reauthorization statute defines 
consumer product, which is the jurisdiction of the CPSC, very 
broadly. It's basically, any product used in homes, schools, 
for personal use, or for entertainment. I think a swimming pool 
can be considered a product by that definition. That 
definition, I believe, can if the Committee wants to explore 
that route, give the CPSC jurisdiction to mandate or child-
proof pools the same way you might child-proof a cigarette 
lighter, which now has to have child proofing on it. Or a 
medicine bottle, which is--the CPSC has jurisdiction over 
those. So, I do believe that's the case. It's a very broad 
authorizing statute. And I think swimming pools would fall 
under that definition.
    Senator Pryor. All right. Let me just ask, just out of pure 
curiosity, as far as I know, Johnson & Johnson is not in the 
pool and spa business at all, but they're supporting this. Is 
there something I need to know about?
    Mr. Korn. Yes. They do do Band-Aids. That doesn't help in 
this situation, Senator. We've been working with Johnson & 
Johnson for 19 years and I've been working with them for 12 
years. And quite simply, I'll just be frank. It's a company 
that cares about protecting kids and they have been funding us 
and lending us their expertise for years to help us prevent 
kids from getting injured, finding their ways to emergency 
rooms, or worse yet, coffins. And they were motivated, like us, 
by the Baker story, and pool drowning in general. And we get 
their help to move forward with this and we sure are 
appreciative of it.
    All that you've seen in the past few days, is in part, 
related to their support for what we're doing.
    Senator Pryor. I just didn't know if they had a connection, 
other than just----
    Mr. Korn. Yes.
    Senator Pryor.--wanting to do it, because it's good public 
policy. Mr. Laven, if I may, I asked a few moments ago about 
the CPSC jurisdiction, do they have the authority right now to 
put in some of these requirements? Do you have an opinion on 
that?
    Mr. Laven. Oh, the industry trade association has worked 
with the CPSC through the last several decades and we would 
continue to support their promotion of the awareness and 
education of these issues, and we would look forward to working 
with them on any recommendations that they want to put forth. 
Our goal is to prevent drowning in backyard swimming pools, 
simply stated. And any attention that we can bring to the 
subject is welcome.
    Senator Pryor. So, do you think they have the authority 
right now to put requirements out there on swimming pools?
    Mr. Laven. I don't know the answer to that question, sir.
    Senator Pryor. OK. That's fair enough. Well, tell me, if 
you can, the difference in the CPSC guidelines and the American 
National Standards Institute's standards. Can you give us a 
very brief rundown on that?
    Mr. Laven. I can speak to the American National Standards--
--
    Senator Pryor. OK.
    Mr. Laven.--process. They review--there's a drafting 
committee that is developed of members of our trade association 
and comments are then submitted to a wide variety of reviewing 
agencies and individuals who are referred to as a canvass list. 
And that includes: representatives of CPSC, American Red Cross, 
CDC, National Sanitation Foundation, UL, Public Health 
Officials, universities, and other interested parties. And they 
are all free to comment on any of these proposed standards. And 
ultimately, any comments that they make have to be re-
circulated and those issues resolved, before a standard can be 
adopted utilizing the ANSI process.
    As I said in my oral testimony, we have eight standards 
that have gone through that process--that rigorous process and 
have been adopted. And one is in a draft mode today.
    Senator Pryor. OK. Let me ask if I can, about SVRS. I 
assume, I mean I don't know if that's the entire SVRS apparatus 
there laying on the witness table, but I assume they can be 
retrofitted on the pools, is that a problem?
    Mr. Korn. Yes. To my understanding, it can. Yes. But--now, 
I know it can.
    Senator Allen. Mr. Laven, is that right?
    Mr. Laven. I believe that's correct.
    Senator Pryor. You can just retrofit them on there? Just 
whatever existing pump machine or either somehow to attach them 
to an existing pump? Do you have a sense, Mr. Laven, about how 
expensive it is--parts and labor, to retrofit a swimming pool 
with one of those?
    Mr. Laven. I don't. But again, this is not an issue of 
cost. From the perspective of the industry, we are fully 
supportive of measures to prevent drowning and entrapment. And 
we believe that the methods that are currently embodied in our 
standard today, do so. And the use of a mandated device, such 
as this one, is not the only method to prevent entrapment.
    Senator Pryor. Mr. Korn, do you have a sense of how 
expensive it is to retrofit a pool?
    Mr. Korn. I think some of the manufacturers in the room, 
they tell us it's about $725. You can find that at the retail 
level.
    Senator Allen. Is that parts and labor?
    Mr. Korn. I believe so, yes.
    Senator Pryor. The reason I ask about cost, I know when you 
look at it as an industry that's a very small cost, very small 
price to pay for the overall safety that you're getting in 
return. But it is a real cost for the homeowner, and I'm just 
trying to get a sense of how expensive something like that 
would be.
    Also let me ask you, Mr. Laven, if I can, I have your 
little booklet here, a little brochure entitled, ``Layers of 
Protection,'' and you have a diagram in there where you list 
out--looks like about 14 different layers of protection. And I 
mean, these range from anything from having an outside 
telephone, to having an automatic cover that goes over the 
pool. Is it your testimony that this brochure is the ideal that 
a homeowner's pool should have all these layers, or should they 
pick and choose and have some? Tell me the industry position on 
that.
    Mr. Laven. Well, Senator, it's our position that one size 
does not fit all. There are a variety of methods that are 
effective in preventing drowning and/or entrapment. And the 
objective of this piece of literature is to demonstrate to 
consumers a variety of these techniques and to work with them 
based on their needs, the age of their family, if they have 
young children or they do not, what kind of installation they 
want, and which of these available methods they choose to 
utilize.
    A swimming pool is not a prepackaged product. It's not as 
if manufacturers can require and attach all of these products 
to them at the factory. The reality is, they are built onsite 
and in fact, each in-ground swimming pool is unique and 
different. And what we're recommending is a variety of these 
methods be analyzed and discussed with each homeowner to meet 
their needs.
    Senator Pryor. And in fact, in this, I'm not sure I see the 
SVRS. It may be buried in here somewhere in the text, but it's 
not jumping out at me. But let me ask this from the industry 
standpoint, here again in this, I know it's a brochure and it's 
really to give some general advice to the pool owner. There are 
14 different things listed in here, plus I think--well, I would 
say we should add the SVRS on there, so, let's say there are 15 
options that people have. Does the industry have a 
recommendation on going with 4 out of the 15 or 8 out of the 
15? Is there a generally acceptable standard within the 
industry of what you should be selling to homeowners as they 
put in swimming pools?
    Mr. Laven. The industry urges the adoption of its ANSI-
approved standard in all 50 states. The fact remains today, 
that states have the choice to accept the standard, or not 
accept it, as do local localities, that we can help avoid many 
of these tragic events if more states adopted them and more 
localities adopted our standards. Many of these events are 
occurring in places where there is no adoption of the APSP 
standard today.
    Senator Pryor. All right. Let me ask this, we've seen some 
covers here on the witness table and as I understand it, some 
of these flat drain, these more traditional style drain covers, 
are still being manufactured and sold in the U.S., is that 
right?
    Mr. Laven. I'm not familiar with any flat drain covers 
being sold today. Everything that I have seen in our trade 
shows, and that is being used on swimming pools that I visit 
each day, are anti-vortex, main drain, domed covers, covers 
that prevent entrapment completely.
    Senator Pryor. Well, that's what I like to hear, because 
that sounds like the marketplace is trying to address something 
in a very common sense way. And also--and this will be my last 
question, Mr. Chairman, is the Pool and Spa Safety Act--you 
mentioned that one of the problems you had with it was the fact 
that it might prefer one product or one technology over other 
options that may not even exist today, that may come in the 
future, and I certainly respect that. But, what other problems 
do you have with that act? Is that the only problem that you 
feel like it sets up a preference for a few existing 
technologies, or do you have other problems with it?
    Mr. Laven. No. My primary concern about SVRS is that I 
personally am aware of one company who has a patent, and is 
promoting their methodology, and who is supporting this 
particular piece of legislation. And as an industry trade 
association, the brochures and the things that we do, don't 
select one manufacturer at the expense of others. We recommend 
a variety of methods be used, provided that they accomplish the 
objective of ensuring avoidance of entrapment.
    Senator Pryor. Mr. Chairman, I think that's all I have.
    Senator Allen. Thank you. As we move forward here, do you--
if any of you all, and probably Mr. Laven and Mr. Korn would 
know the most, but it would seem to me that if people have a 
swimming pool at their house, insurance companies and 
potentially the lenders, but more and more likely, insurance 
companies are going to require certain safety matters.
    I wanted to get my kids a trampoline and then found that 
insurance companies said, well, we're just not going to cover 
it. And you know, kids get injured on trampolines. They are 
great fun, but kids and neighbors come in, and they're all 
bouncing around, and one could bounce off and be injured, you 
get sued. So, we couldn't get a trampoline.
    Even in a dryer, the insurance company said well, if you're 
going to insure this dryer, you have to get a metal exhaust 
hose, so that it stays in place, as opposed to one that is 
plastic, breaks and then you get the exhaust, so to speak, out 
of the dryer. And so, a lot of the times insurance companies 
are requiring this.
    Do you know of insurance companies' reactions, or policy--
what they require of policyholders that have swimming pools in 
their backyards? Mr. Laven or Mr. Korn, and whether or not for 
example, if they're going to be worrying about someone's dryer, 
or do they worry about, or do they inspect to see if there are 
those drain covers that are vortex, so that hair and humans 
can't be sucked into it? Do you know of any of that?
    Mr. Korn. My guess, Senator, and it's just that, is no. We 
even see a disconnect between what are commonly accepted safety 
devices or the drain covers, and as you get down to the pool 
service side, just the awareness is not there yet. So, I don't 
know for sure. My guess is no, but we do have a lot more 
education to do and the insurance companies would be one of the 
people we want to communicate with.
    Ms. Baker. Mr. Chairman?
    Senator Allen. Yes?
    Ms. Baker. Since I'm from Virginia and at my old home we 
had a pool, the insurance requirement was for three-sided 
fencing----
    Senator Allen. Uh-huh (affirmative).
    Ms. Baker.--to prevent anything from the outside--a bird 
coming in, but the pool in this older home that we had bought, 
had originally flat drains and there was never any--I didn't 
know anything about entrapment but there were no requirements 
around the drains, or how it was plumbed, or--there was none of 
that.
    Senator Allen. Mr. Laven, what do you know about what 
insurance companies----
    Mr. Laven. I am not aware personally, of any insurance 
companies being vocal on the topic of SVRS, or drain covers, or 
things along the lines of entrapment. As tragic as the Baker 
family loss is, it is the most infrequent of the types of 
safety issues that our industry faces everyday. We find far 
more drownings, as Mr. Korn has pointed out, than entrapments. 
And we are also faced with diving injuries.
    I am aware of some insurance companies and some markets, 
being vocal on the issue of diving boards. But that's the only 
item that I am familiar with, sir.
    Senator Allen. All right. This is the reason for a hearing, 
to learn from all of you, as well as our first panelist, as to 
what would be appropriate. I look at the Pool and Spa 
Entrapment Hazards Checklist from the Consumer Product Safety 
Commission, and it's called entrapment, but it may be the 
checklist and it's just because we're not as conversant with 
it. But if you look at this, it just says, proper suction drain 
covers installed if applicable, SVRS or other device tested in 
operational according to the manufacturers instructions.
    It strikes me as what they have is pretty broad. It may not 
even be specific enough, but it is fairly broad in that there 
is a checklist as far as the Pool and Spa Entrapment Hazards 
Checklist. And this is to be checked: the filter room in pool 
before filling and after periodic maintenance and cleaning 
procedures.
    Mr. Korn, have you looked at these guidelines? This is from 
March of last year.
    Mr. Korn. Yes. And I think some of the other consumer 
education pieces produced and published by the CPSC talk about 
these layers of protection. All four of them matter of factly: 
four sided fencing, isolation fencing, other things that you 
mentioned, pool alarms and so forth. The SVRS systems, the 
anti-entrapment drain covers, and the dual drains. So, the 
checklist is fairly consistent with what they're doing from a 
community education basis. By the way, we think we could do a 
lot more on this issue, but the items are contained in there.
    Senator Allen. Mr. Laven, in the event that we act, if 
we're going to act, from--and I'm speaking for myself, I think 
that it should be one that is--we're concerned about entrapment 
from a variety of different ways. And there are a variety of 
different ways that this suction cutoff can be handled. I would 
think that retrofitting is easier than digging in another hole 
or another pipe. Although that may work, particularly for new 
construction. And there may be others, who knows what will come 
up in the future? So, let's assume that we're going to move one 
way or the other, and we're going to consider this, because I 
know that Senator Pryor and I always want to think of every 
angle and what's the best approach? And we don't like to stifle 
innovation. But we don't want to have people not enjoying pools 
or making them so costly that fewer people can enjoy pools or 
spas. But in the event that we adopted an incentive program to 
the states which have these broad approaches, would your 
association be favorably inclined for such legislation, a 
broader approach with goals, as opposed to what is going to be 
introduced in the House which is too narrow and impedes 
innovation, in your perspective? And in fact, Mr. Korn was 
talking about this. Could you be supportive of that sort of an 
approach?
    Mr. Laven. The Association of Pool and Spa Professionals 
would welcome the opportunity to work on that piece of 
legislation, to make changes, to make improvements, and to 
bring more attention to this issue. Yes, Senator. We would 
definitely appreciate the opportunity to be heard on the topic 
and to make improvements in that particular piece of 
legislation, and to provide incentives for the states as that 
contemplates, for adopting pool and safety measures.
    Ideally, our solution would be the adoption of the ANSI-
approved standards that we have, which we believe encompass all 
of the items that are in that current bill.
    Senator Allen. The bottom line, I don't want to put words 
in your mouth, because it's important what you answer here, 
because you're representing a large association, a diverse 
association across this country. The point is, is that this 
sort of broader concept incentive approach, if properly 
crafted, could ultimately have your support. And of course 
we're going to have you involved, and Ms. Baker, and Mr. Korn, 
and many, many others including the Consumer Product Safety 
Commission, in crafting any sort of legislation. The point is, 
this concept as I outlined it, ultimately could have your 
support.
    Mr. Laven. Absolutely, Senator.
    Senator Allen. Thank you. That's good. Let me just say one 
thing and this is off the subject, Mr. Korn. I--and since you 
care about kids, and some kids are still in their mother's 
womb, I understand that these hot tubs are not desirable for 
pregnant women. Would you like to make any comment on that from 
your knowledge?
    Mr. Korn. I don't know myself, the medical benefits. I have 
spoken to a spa inspector who told me, for what it's worth, 
that a pregnant woman does not want to get into a hot tub. It's 
been a while since I've had to focus on that situation myself. 
I was----
    Ms. Baker. Chairman Allen?
    Senator Allen. Yes?
    Ms. Baker. I once was pregnant----
    Senator Allen. All right.
    Ms. Baker.--and my doctor said, the heat is not good and 
the chemicals in the water are probably also, not good. Don't 
quote me on it. Quote my doctor.
    Senator Allen. Now we just have two television cameras here 
and this is recording us--along with a stenographer, court 
reporter. One of the values of this Committee I have found, is 
just simply educating people as to certain risks. And I think 
people, if they are educated as to the risks, will for the most 
part, show common sense notwithstanding what any level of 
government does. But that's one thing people would say, oh my 
goodness, what's the worry? But, there is a worry with it.
    So, do you have any further questions?
    Senator Pryor. No, thank you.
    Senator Allen. Well, if there are no further questions, I 
want to thank all of our witnesses, including Ms. Elder, for 
your testimony. I do think that we have--to the extent that we 
have reporters and others watching this hearing, in fact, just 
holding this hearing got a lot of media attention, which has 
gotten the attention of parents who think of their own children 
and what you went through, Ms. Baker. And I'll tell you, the 
heartbreaking, heart wrenching story, which took a lot of 
bravery on your part to recount this time after time, is making 
sure that they'll not be other children, they may not be named 
Graeme, but other children that will not lose their lives in 
such a horrendous, frightening approach obviously for the child 
and for their parents.
    I think we've also heard a reasoned analysis here, and 
there seems like there is an area of consensus where we can 
come together and craft if there's going to be legislation. And 
I suspect there may be. But, one that makes sense for those who 
are most knowledgeable in the industry, coming up with 
standards, which are not so restrictive that it thwarts 
creative ingenuity and innovations. And I think if we can get 
the three of you all together, and the CPSC, and Senator Pryor 
and I, we work in a nonpartisan, bipartisan basis. I look 
forward to doing so. And I thank you all. You've really brought 
to light a concern, but also shed light on where we need to go 
into the future.
    I thank all of our panelists for your preparation, for your 
time, and we'll also continue to be working with you in the 
weeks and months ahead to craft appropriate effective 
legislation to prevent and avert future deaths or injuries in 
these spas or pools.
    Thank you all and the hearing is adjourned.
    [Whereupon, at 4:40 p.m., the hearing was adjourned.]


                            A P P E N D I X

                    U.S. Consumer Product Safety Commission
                                          Bethesda, MD, May 5, 2006
Hon. George Allen,
Chairman,

Hon. Mark Pryor,
Ranking Member,

Senate Subcommittee on Consumer Affairs, Product Safety, and Insurance,
Commerce, Science, and Transportation Committee,
Washington, DC.
                                            Re: Pool Safety

Dear Senators:

    Thank you for inviting a representative from the U.S. Consumer 
Product Safety Commission (CPSC or Commission) to testify before the 
Subcommittee on Consumer Affairs, Product Safety, and Insurance at the 
May 3, 2006 hearing on Pool Safety. As you know, drowning hazards have 
been an issue of concern to the Commission for decades, and your 
hearing was an important step forward in further alerting the public to 
the serious risks associated with children and pools. This letter is 
intended to supplement the testimony of the CPSC at the hearing.
    As you know, the Commission has been active in identifying and 
publicizing the risks related to pool drowning and drain entrapment and 
has issued detailed safety information and guidelines on how to 
reasonably mitigate these hazards. (These guidelines were submitted to 
the Committee for the hearing record.) The purpose of the guidelines is 
to provide information, awareness, and recommendations on pool safety 
for consumers and others to attain ``layers of protection'' against 
entrapment and other pool hazards.
    Pool construction is subject to a wide variety of state and local 
regulatory authorities. The scope and detail of such regulation varies 
widely not only from state to state but often within each local 
subdivision in a state. Many pool construction requirements, including 
safety features, are adopted in local building codes and include 
requirements for and inspections of pump and filter systems, skimmers, 
drain covers, and perimeter security. The Commission's guidelines 
related to pool barrier safety and entrapment consider these competing 
jurisdictional issues.
    At the hearing on this matter, an inquiry was made as to whether 
the provisions of the Commission's guidelines can be made mandatory by 
the Commission. It is unclear whether all of the recommendations may be 
made the subject of mandatory regulations promulgated by the 
Commission. As discussed, the subject matter of some of the guidelines, 
such as those that relate to construction issues, are covered by state 
and local jurisdictions. Because of the multiple jurisdictions involved 
in this area, the Commission has historically issued and recommended 
guidelines dealing with this subject matter so those entities that have 
jurisdiction in each area may act accordingly toward the goal of saving 
lives and preventing injuries.
    The Commission remains committed to continuing its aggressive pool 
safety activities by performing research, conducting public education 
and awareness campaigns, investigating new technologies, promulgating 
safety regulations where appropriate, and working with all stakeholders 
to save lives and prevent injuries.
                                               Jack Horner,
                                  Director, Congressional Relations
                                 ______
                                 
 Prepared Statement of Maureen Williams, President, National Drowning 
                       Prevention Alliance (NDPA)
Toddler Drowning in the U.S.--A Preventable Tragedy
    Tragically, drowning is the number two cause of accidental death in 
children under age 5 in the United States. Many years, it's the number 
one cause of accidental death of toddlers in the Sunbelt states. In 
children ages 1 to 5, the majority of these drownings take place in 
residential swimming pools.
    Yet, drowning is a totally preventable tragedy that takes a huge 
toll in lives lost and families destroyed. The loss of a child from any 
cause is difficult to endure, but in the drowning of a child, the guilt 
factor is often insurmountable. In a traffic collision, others may be 
perceived to be at fault. In a drowning incident, the caregiver who was 
supervising the child at the time of the incident must reconcile how a 
perfectly healthy, happy toddler who was in his room watching a video 
five minutes earlier is now dead. The divorce rate among parents of 
children who have drowned has been estimated to be as high at 98 
percent.
    The costs associated with toddler drownings, however, go far beyond 
the emotional toll. Many children who succumb to drowning have first 
spent days in the hospital on life support. Care for children who 
survive drowning incidents with significant brain damage, and who live 
into adulthood, must frequently be paid through Medicaid, either 
because the parties involved are uninsured, or the insurance cap has 
quickly been reached.
    In an Australian study (J. Paediatric Child Health 2003), it was 
determined that neurological damage at discharge following near-
drowning was reported in 7 percent of children under 5 years. In the 
U.S., the CPSC estimates that 2,600 children survive a drowning 
incident each year. If 7 percent of these children survive with 
neurological damage, that is 182 children per year that most likely 
will need some degree of care throughout their lives.
    Nadina Riggsbee, a board member of the National Drowning Prevention 
Alliance, knows the costs firsthand. Her son JJ was revived after a 
drowning incident over a quarter of a century ago in which his sister 
lost her life. For many years, JJ Riggsbee has been unable to 
communicate in any manner and has required 24-hour-a-day nursing care.
    Nadina has been a tireless crusader for drowning prevention since 
her children's 1979 tragedy. With the cooperation of the California 
Department of Developmental Services, she has calculated that there are 
presently over 600 drowning survivors in California State Hospitals and 
community care facilities including private homes. The cost of nursing 
care for the vast majority of these patients is paid by Medi-Cal, 
California's Medicaid program. For those being maintained with a level 
of care similar to JJ Riggsbee, the cost of nursing care averages 
$17,000 a month, which equates to $204,000 per year. Multiplied by 600 
patients, this care is an astronomical $12,240,000 per year.
    This figure does not include periodic visits to acute care 
facilities for the treatment of pneumonia, a common occurrence with 
those who've suffered this type of injury; durable medical equipment 
such as custom wheelchairs at up to $8,000 each (many of these patients 
``posture'' due to the brain injury, and cannot use a regular 
wheelchair); respiratory care, physical therapy, medication, 
respiratory equipment, etc.
    And these children are still entitled to an education, so states 
must fund special education instructors, specially equipped buses to 
transport them to school, nurses or aides to accompany them, and many 
other accommodations that must be made to ensure an equal opportunity.
    The statistics above reflect just the yearly cost in California. 
Toddlers drown in every state in the union. It happens more often in 
Arizona, California, Florida, Nevada, Texas, and other states where the 
weather is warm year-round, but states like New York and Washington 
also have serious childhood drowning problems.
    The reality is, drowning doesn't just happen, like childhood 
leukemia, it's a preventable injury.
    The best prevention is ``layers of protection'' around every 
residential and community swimming pool, with the most effective layer 
being four-sided isolation fencing surrounding the pool.
    Many drowning studies documenting the effectiveness of isolation 
fencing have come out of Australia, as it was one of the first 
countries in the world to have adopted stringent fencing legislation. 
Because of this, researchers have been able to document a significant 
reduction in toddler drowning rates before and after this legislation 
was introduced.
    U.S. studies include a report published by the Arizona Child 
Fatality Review Program, ``Data on Child Drowning Deaths, on April 7, 
2003 (see www.childrensafetyzone.com).
    The team studied the drowning death reports of 269 Arizona children 
under 19 years of age that occurred from 1995-2001. The study says, 
``There were only six deaths that occurred in backyard pools in which 
it was known that there was an adequate pool fence that had a properly 
functioning locked gate. In at least two of these six, the child had 
access to the pool from a doggie door.''
    The study goes on to say, ``The ACFRP determined that supervision 
of the child and pool fencing could have prevented 90 percent of the 
drowning deaths that occurred in backyard pools.''
    Adding other types of barriers, such as alarms and automatic pool 
covers, can provide additional layers of protection that can buy the 
caregiver the few minutes needed to re-establish eye-to-eye contact 
after a momentary distraction such as answering the door or phone, 
cooking dinner or even checking e-mail.
    The National Drowning Prevention Alliance (NDPA) supports the 
passage of legislation to require layers of protection and entrapment 
prevention devices for every residential swimming pool in the country, 
whether a permanent pool structure, or a large inflatable pool.
    The NDPA was formed in early 2004 to maximize efforts to prevent 
drowning through the development and implementation of strategies to 
facilitate and improve education, public awareness, effective barrier 
codes, and greater utilization of layers of protection.
    This national organization is comprised of individuals, 
organizations, government agencies and corporations who have the common 
goal of saving lives. The NDPA board of directors includes four parents 
of children who have drowned along with representatives of numerous 
public agencies involved in drowning prevention. See 
www.preventdrowning.info for further information. Thank you for giving 
us the opportunity to submit this written testimony.
                                 ______
                                 
Prepared Statement of the National Swimming Pool Foundation<SUP>'</SUP>
    Thomas M. Lachocki, Ph.D. and CEO of the National Swimming Pool 
Foundation based in Colorado Springs, Colorado, is submitting the 
following testimony on the Pool and Spa Safety legislation submitted by 
Representative Debbie Wasserman Schultz of Florida.
    It is important that Federal guidelines on pool safety be adopted 
because there is such a disparity on jurisdictions from state to state. 
Adoption of these guidelines will help provide uniformity and prevent 
unnecessary deaths due to drowning or injury.
    We applaud and endorse Congresswoman Wasserman Schultz and her 
supporters, who are proposing national legislation to reduce drowning 
and entrapment. We believe the proposed legislation should include 
support for broader efforts. We urge Congress to enact legislation that 
rewards states who impose measures to:

        1. Prevent drowning

        2. Prevent entrapment

        3. Prevent recreational water illness (RWI)

        4. Require training and certification for people who operate 
        and service public and private pools

        5. Earmark $5 million to the CDC Healthy Swimming Program, 
        which would include efforts to prevent drowning, entrapment and 
        illness

NSPF<SUP>'</SUP>
    The National Swimming Pool Foundation<SUP>'</SUP> (NSPF<SUP>'</SUP> 
) is a 41-year-old non-profit 501(c)(3) organization committed to 
improving public health by encouraging healthier living through aquatic 
education and research. NSPF<SUP>'</SUP> is the leading educator for 
pool and spa professionals who service and operate public and private 
pools and spas and for public health officials who are responsible for 
pool safety. NSPF<SUP>'</SUP> trained about 20,000 people in 2005, 
certifying 17,000. NSPF<SUP>'</SUP> has certified over 182,000 pool 
operators to date. The foundation is the leader in funding grants to 
prevent illness and injury, including a grant to the CDC to reduce 
recreational water illness. For over 30 years the NSPF<SUP>'</SUP> has 
also funded important and recognized research to understand and 
ultimately prevent suction entrapment. NSPF<SUP>'</SUP> organizes the 
leading scientific conference to prevent injury and illness in pools 
and spas, the World Aquatic Healthy<SUP>TM</SUP> Conference. The Board 
of Directors of NSPF<SUP>'</SUP> voted to fund $650,000 in grants for 
2006, a 30 percent increase over 2005. NSPF<SUP>'</SUP> funds grants to 
help reduce risk at aquatic facilities and has funded the CDC's Healthy 
Swimming Project for three consecutive years. The Foundation also is 
the largest funding source for grants to study the aquatic health 
benefits, having allocated $247,000 to Dr. Bruce Becker, Washington 
State University, to study the benefits of deep water exercise. 
Additionally, NSPF<SUP>'</SUP> has approved matching grant funds for 
Dr. Becker to study the cardiac health benefits of immersion in hot 
tubs.
Rationales 1 and 2--Prevention of Drowning and Entrapment
    The Federal Government should reward the states that implement 
legislation including dual main drains, anti-entrapment covers, and 
other means selected by the health department based on current 
available technology. We recommend legislation not dictate specific 
measures since new safety technologies are constantly being introduced. 
Also, the state health departments are most qualified to select which 
levels of protection are most adequate to protect against drowning, 
entrapment and illness.
Rationale 3--Prevent Recreational Water Illness (RWI)
    The CDC records the number of people affected in documented RWI 
outbreaks. The undocumented numbers are certainly much higher. The last 
CDC report (2001-2002) demonstrates approximately 1,500 people per year 
in the United States are affected by RWI. The CDC reported at the 2005 
World Aquatic Health<SUP>TM</SUP> Conference that approximately 5,000 
people were affected in 2005.
Rationale 4--Require Training and Certification for Persons Operating 
        and Servicing Public and Private Pools
    Only 19 of 50 states require people who care for swimming pools and 
spas to have achieved a basic knowledge in certification via a two-day 
training and certification class. Unfortunately, 31 states have no such 
provision in their laws. Lack of education for people who service 
residential pools as well as operate public pools invites shortcomings 
that can result in drowning. entrapment, illness, or other injuries. It 
is imperative that minimum education standards be dictated to help 
protect the public.
Rationale 5--Earmark $5 Million to the CDC Healthy Swimming Program.
    The CDC has been working to prevent RWI through its Healthy 
Swimming Program. To support this program, which would include efforts 
to prevent drowning, entrapment, and illness, NSPF has provided grants 
over the last three years. These charitable funds have been donated in 
part due to the absence of a Federal mandate to fund programs that 
prevent drowning, entrapment, illness or other injuries at recreational 
water facilities. It is important that some funds be dedicated to this 
critical task to insure the American public can benefit from healthy 
activities in the water. These water activities help to prevent 
obesity, heart disease, Type II diabetes, and other maladies that 
result from a sedentary society.
    We respectfully request that Congress enact legislation that 
provides financial incentives to states that implement codes that 
prevent drowning, suction entrapment, and recreational water illness 
and that promote education. We recommend the following:

        1. At a minimum, the legislation should either remove all 
        direct suction from the pool or spa, eliminating the risk of 
        entrapment.

        2. In the event that the pool or spa does have direct suction, 
        dual main drains with an approved anti-entrapment cover should 
        be required. Any additional levels of protection for entrapment 
        or the approved levels of protection to prevent drowning should 
        be determined by the state health departments, based on the 
        most current information and technology available.
                                 ______
                                 
 Prepared Statement of Gary S. Duren, President, Code Compliance, Inc.
    I am pleased to submit this written testimony for the 
Subcommittee's May 3 hearing on pool safety. I want to commend the 
Chairman, Senator George Allen, and the Ranking Member, Senator Mark 
Pryor, for holding this hearing.
    I am a member of the American Society of Mechanical Engineers A112 
Plumbing Materials and Equipment [Standards] Committee (ASME A112 Main 
Committee) and currently serve as the Project Team Leader/Chairman for 
the Safety Vacuum Release Systems for Pools and Spas Project Team (PTL 
A112.19.17) and as the Deputy Project Team Leader/Vice Chairman for the 
Suction Fittings For Use in Swimming Pools, Wadding Pools, Spas Project 
Team (DPTL Vice Chairman A112.19.8)
    In 1999, I was appointed by Florida Governor Lawton Chiles as a 
Member of the Florida Building Commission, Plumbing and Gas Technical 
Advisory Committee (FBC Plumbing and Gas TAC). This TAC has 
responsibility for swimming pool codes. I currently serve in this 
capacity having been reappointed to additional terms by Governor Jeb 
Bush.
Background
    If asked ten years ago would there ever be a coast-to-coast model 
building code, much less a plumbing or mechanical code? The answer 
would have likely been, ``not in our lifetime''. When looking at the 
current state of model codes available in the U.S., it becomes clear 
that writing a true national model for any of the code-disciplines is a 
monumental undertaking. However, the International Code Council (ICC) 
and its I-Codes are now reality and most authorities having 
jurisdiction around the U.S. are beginning to utilize the I-Code models 
as the basis for their individual building regulations.
    The entire ICC code development process is totally dependent on its 
volunteer system. It is an outstanding example of how it really works 
when self-determination and self government are left intact. We can be 
very proud of all of those state and local governments, contractors, 
architects, engineers and plain ole individuals who sacrifice their 
valuable time for the noble purpose of a coast to coast set of model 
codes.
    How could all of this consolidation have occurred in such a 
relatively short time frame? It was due to three primary factors:

        1. No One Wanted ``Big Brother'' in the Code Business.

    In the late eighties and early nineties it appeared that ``Big 
Brother'' was looking to get into the building code business. Everyone 
actively involved in the industry knows that having the Federal 
Government write building codes is the last thing we wanted to see.
    In November of 1989, President Bush (Sr.) announced his HOPE 
initiative, he asked HUD Secretary Jack Kemp to appoint a blue-ribbon 
commission to study government regulation that drive up housing costs 
for American families.
    Acting on this request, Secretary Kemp created an Advisory 
Commission on Regulatory Barriers to Affordable Housing (See ``Not in 
My Back Yard'' Removing Barriers to Affordable Housing--1991).
    The recommendations from this group were in favor of keeping the 
Federal Government out of the code writing business and actually 
encouraged state and local adoption of the Council of American Building 
Officials (CABO) One and Two Family Dwelling Code.
    At that time, the CABO code was the first stab at a coast to coast 
residential code and the first time in history that the three principal 
code promulgating bodies, BOCA, ICBO and SBCCI joined their forces 
towards the common goal of a coast to coast residential building code.

        2. The Design Community, Architects and Engineers alike were 
        strongly in favor of a uniform set of building regulations.

    For obvious reasons, designer professional everywhere were sick and 
tired of differing building regulations between state and county 
borders.

        3. The National Association of Home Builders was strongly in 
        favor of a uniform set of building regulations.

    Once again the reasons are obvious as to why home builders would be 
supportive of such a concept as a uniform set of building regulations.
    So in the mid nineties the climate and soil conditions were right 
and the CABO leadership had clear vision. They quickly seized the 
opportunity to move forward by establishing the ICC founding it on the 
noble idea of uniform building codes.
Recommendations
    Since 1999, I have researched the issue of pool and spa related 
suction entrapment. I am the proponent of the minimum performance codes 
that are contained in the International Code Council's (ICC), 2006 
International Building Code (IBC) and 2006 International Residential 
Codes (IRC). These respective codes are based on the CPSC guidelines 
found in United States Consumer Product Safety Commission Publication 
No. 363 009801 and currently available American National Standards 
Institute accredited performance standards. Specifically, the new I-
Codes require all new pools to have barrier fencing, dual drains, 
quality drain covers, and safety vacuum release devices (SVRS) which 
shut off the suction or vacuum force of pool drains in case of swimmer 
entrapment. These four measures form the ``layers of protection'' 
required by the I-Codes and will dramatically strengthen pool safety.
    The United States Consumer Product Safety Commission has issued 
voluntary guidelines related to making pools safer. However, some of 
the current guidelines lack scientific research to back the 
recommendations.
    Specifically the CPSC guidelines do not recommend all of the 
``layers of protection'' now required by the new I-Codes, namely they 
do not recommend the SVRS devices. I believe this to be a serious 
mistake.
    The I-Code developmental processes provide assurances that the 
model codes contain performance-based language as opposed to 
prescriptive-based requirements. The code development procedures also 
ensure that referenced standards cited meet strict guidelines.
    I am of the firm opinion that the I-Codes are the most effective 
means for regulating the built environment including swimming pool and 
spa construction. The best thing that our government can do at this 
point in time is to provide strong incentives to state and local 
authorities having jurisdiction to adopt and enforce these important 
safety measures.
    The I-Code developmental processes provide an open forum and level 
playing field where all stakeholders have input into the final product. 
Their models cover new construction as well as existing construction.
    It is the area of existing construction that causes me the greatest 
concern. There are numerous pools and spas that are death traps waiting 
to be sprung on the innocent. Our government can do a lot to promote 
public awareness. Education of the public, enforcement personnel and 
pool and spa builders is a must. Our government must do more to help 
educate.
    Thank you for considering my thoughts on this important safety 
matter.
                                 ______
                                 
    Prepared Statement of Gayle and Evan Weiss, Pool and Spa Safety 
                               Advocates
    We are pleased to submit this written testimony for the 
Subcommittee's May 3 hearing on pool safety and in doing so we also 
commend the Chairman, Senator George Allen, and the Ranking Member, 
Senator Mark Pryor, for holding this hearing.
    Here is our story: Our son, Samuel, was sucked to the bottom of an 
outdoor swimming pool spa while on a play date at a friend's home. Even 
though there was proper parental supervision, we were told that our son 
was literally stuck to the bottom of the swimming pool spa and was only 
able to escape by a fluke. Miraculously, while Samuel was praying for 
his life under the water his buddies managed to push sideways on his 
body at just the right angle to liberate him from the suction. We later 
learned that most adults pull on the entrapped child which in most 
cases will not liberate the child, but in the rare instances that such 
pulling does free the subject they suffer horrendous internal injuries.
    We believe that G-d intervened to save our son's life and we want 
to return our blessing by seeking to change the laws and regulation at 
the Federal and State level by sharing our story.
    We believe that the proposals and positions set forth by Alan Korn 
of Safe Kids Worldwide,on behalf of the pool safety consortium, will 
save lives and spare heartbreak. We are also convinced that our child's 
incident is a very common experience that most times goes unreported. 
There is no doubt in our minds that this area is grossly under-
regulated in our state as well as our country. We urge the Senate 
Subcommittee to take the actions recommended by Mr. Korn and supported 
by our friend and heroine Nancy Baker this day.
    This one seems so clear and easy to us. For very little cost and 
effort you will be saving our country's most precious assets--our 
children's lives.
    Thank you for taking the time to give your attention to our humble 
request. You have the power to make a difference and protect so many 
people.

                                  <all>

</pre></body></html>
